No. 20IN THE
Supreme Court of the United States
____________________
ALBERTO VILAR AND GARY TANAKA,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
____________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second
Circuit
____________________
PETITION FOR A WRIT OF CERTIORARI
____________________
VIVIAN SHEVITZ
46 Truesdale Lake Drive
South Salem, New York
10590
(914) 763-2122
vivian@shevitzlaw.com
ATTORNEY FOR
PETITIONERS

i

QUESTION PRESENTED
In 2013, the Second Circuit affirmed
convictions of Petitioners Gary Tanaka and Alberto
Vilar for securities law-related offenses, but vacated
the sentences and remanded. The Circuit expressly
declined to review claims of “ineffective assistance of
counsel” stating it was not reaching those claims and
that, “[p]articularly in view of the complexity of this
case”, Petitioner “may pursue this claim, if he
chooses, in a subsequent §2255 petition.” (84a,87a).
The district court judge thereafter refused to
consider two 2255 petitions, citing procedural
reasons.
Then, in 2019, explicitly stating his decision
rested solely on the trial record, the judge (still
presiding over penalties) denied habeas relief and
denied a certificate of appealability. The Second
Circuit, stating nothing about the record used for
habeas review, affirmed the denial and dismissal
stating only that appellants “have not “made a
substantial showing of the denial of a constitutional
right.” (1a).
The question presented is:
whether,
pursuant to Massaro v. United States, 538 U.S. 500
(2003), the failure of the district court and the Court
of Appeals to consider the expanded habeas record,
violates Due Process in that it prevents intelligent or
thorough assessment of the claim of ineffective
assistance of counsel in the first instance, let alone
appellate review.

ii

PARTIES TO THE PROCEEDING

The
defendants-appellants
below,
now
Petitioners herein, were Alberto Vilar and Gary
Tanaka.
The United States was the plaintiff/
appellee.

NO PUBLIC CORPORATE PARTIES

The private corporations belonging to Alberto
Vilar and Gary Tanaka were also named in the
parallel actions brought by the SEC. None of those
corporations were publicly owned.

RELATED CASES

Essentially there are two related cases involving
Petitioners Vilar and Tanaka: the criminal case in
the SDNY (United States v. Vilar and Tanaka,
05cr621), and the parallel civil case commenced by
the SEC (SEC v. Amerindo Investment Advisors, Inc.,
Vilar and Tanaka et al, 05cv5231).
Judgments were rendered in both cases and
appealed in the Second Circuit, as listed below. There
are ongoing proceedings in both cases in the SDNY,

iii

concerning the penalties (forfeiture and a resolution
of a receivership in the civil case).

There have also been related mandamus proceedings
brought before the Second Circuit.

1. The Criminal case 05cr621 (SDNY, judgment
2/10/2010); direct appeals from convictions (Second
Circuit 10-521, 10-580, and 10-4639, aff’d and
remanded, 8/30/2013), cert. denied (Supreme Court
13-1396, 5/27/2014); and appeal from resentencings
Second Circuit (14-1452 and 14-1453, aff’d in part
and reversed and vacated in part 3/23/2016).
- There are ongoing substitute asset forfeiture
proceedings in the district court, 05cr621, and
pending in the Second Circuit, 19-2492 and 20-421.
2. mandamus proceedings
-(2d Cir. 18-26), mandamus denied 3/20/2018.
-(2d Cir. 13-2550), granted in part, 8/21/2013.

3.
The related civil SEC proceeding,
SEC v.
Amerindo, Vilar and Tanaka et al., 05cv5231
(judgment 5/16/2014); Appeal to Second Circuit, 142425, aff’d, 2/26/2016). Certiorari was denied by this
Court on 6/6/2016 (15-1320).

iv

-There is presently an appeal to the Second
Circuit pending, and stayed by the Second Circuit
(SEC v. Amerindo et al, 17-2534, 17-2541 et al).
There are ongoing proceedings in the civil case,
tied to the substitute asset forfeiture matter in the
criminal case.
4. The instant 2255/habeas corpus proceeding, Vilar
and Tanaka v. United States, 05cr621/17civ1491
(judgment August 12, 2019, and decision denying
certificate of appealability and forma pauperis on
August 16, 2019 (decision as to which certiorari is
sought).
- motions for certificate of appealability, Second
Circuit 19-2505 judgment denying certificate of
appealability, December 19, 2019; and judgment
denying rehearing and rehearing en banc, March 10,
2020 (decision as to which certiorari is sought).

v

TABLE OF CONTENTS
QUESTION PRESENTED ........................................ i
PARTIES TO THE PROCEEDING ......................... ii
NO PUBLIC CORPORATE PARTIES ..................... ii
RELATED CASES .................................................... ii
TABLE OF CONTENTS........................................... v
APPENDIX TABLE OF CONTENTS .................... vii
TABLE OF AUTHORITIES .................................... ix
PETITION FOR A WRIT OF CERTIORARI ........... 1
OPINIONS BELOW ................................................. 1
JURISDICTION ....................................................... 2
RELEVANT CONSTITUTIONAL PROVISIONS
AND STATUTES ..................................................... 2
STATEMENT OF THE CASE.................................. 5
The Multiple 2255 Petitions ..................................... 9
Ruling on the 2255 – on the trial record alone -- and
denial of Certificate of Appealability ..................... 13
Certificate of Appealability litigation .................... 17
REASON TO GRANT THE WRIT ......................... 20
Certiorari should be granted because
reasonable jurists could unquestionably
debate the circumstances identified by
petitioners
as
constituting
ineffective
assistance of counsel. In relying solely on
the trial record to deny claims of ineffective
assistance of counsel, the trial court, and the

vi

Court of Appeals, failed to follow Supreme
Court cases that make clear that a trial
record is not sufficient for review of habeas
claims........................................................... 20
CONCLUSION ............................................................ 24

vii
TABLE OF APPENDICES
Page
A PPEN DI X A — OR DER OF T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, FILED
DECEM BER 10 , 2 019, DEN Y I NG
CERTIFICATE OF APPEALABILITY  .  .  .  .  .  .  .  . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK,
FILED AUGUST 16, 2019, DEN YING
CERTIFICATE OF A PPEA L A BILIT Y
AND FORMA PAUPERIS STATUS  .  .  .  .  .  .  .  .  .  .  . 3a
APPENDIX C — OPINION & ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED AUGUST, 2, 2019,
DENYING 2255 PETITION .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5a
APPENDIX D — DENIAL OF REHEARING AS
TO CERTIFICATE OF APPEALABILITY,
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED MARCH 10, 2020 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25a
A PPENDI X E — MOTION FOR
RECONSIDERATION OF DENIA L OF
CERTIFICATE OF A PPEA LA BILIT Y,
I N T H E U N I T ED S TA T E S C OU R T
OF A PPEA LS SU BMIT TED TO
T H E S E C O N D C I R C U I T, D A T E D
DECEMBER 23, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27a

viii
TABLE OF APPENDICES
Page
A PPEN DI X F — M EMOR A N DU M
SUBMITTED TO UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT,
DATED AUGUST 29, 2019, IN SUPPORT
OF MOTION FOR CERTIFICATE OF
APPEALABILITY .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34a
APPENDIX G — REPLY PETITION FOR
2 2 5 5 RELIEF, A ND MEMOR A NDUM,
SU BMIT TED TO THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK,
DATED MAY 30, 2017  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57a
APPENDIX H — EXCERPTS OF OPINION
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DAT ED AUGUST 3 0, 2 013 , STATING
T H E C OU RT WOU L D NO T R E AC H
THE INEFFECTIVE ASSISTANCE OF
COUNSEL CLAIM .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 83a

ix

TABLE OF AUTHORITIES

Cases
Andrus v. Texas, 590 U.S. __ (June 15, 2020) .........8, 22
Buck v. Davis, 137 S. Ct. 759 (2017)........................21, 23
Massaro v. United States, 538 U.S. 500 (2003) ... passim
McGee v. McFadden, 139 S. Ct. 2608 (2019) ...............22
Miller-El v. Cockrell, 537 U.S. 322 (2003) ............ passim
Morrison v. National Australia Bank Ltd., 561 U.S.
24 (2010).............................................................................5
Mui v. United States, 614 F.3d 50 (2d Cir. 2010 .........17
Slack v. McDaniel, 529 U.S. 473 (2000)........................20
Strickland v. Washington, 466 U. S. 668 (1984) ....8, 14,
15, 18
Statutes
28 U.S.C. §2253(c) ..........................................................3, 20
28 U.S.C. §2255 ...................................................passim
Constitutional Provisions
Amendment V, U.S. Constitution ..............................4, 19
Amendment VI, U.S. Constitution .........................4, 5, 19
Other Authority
L.A. Times, July 5, 2005 ...................................................11

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Alberto Vilar and Gary Tanaka
respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Second Circuit denying a Certificate of
Appealability from the denial of their Petition for
vacatur of their convictions pursuant to 28 USC 2255,
and from the denial of rehearing and rehearing en
banc.
OPINIONS BELOW
The portion of the Second Circuit’s 2013 decision
stating that the Court was not reaching allegations of
ineffective assistance of counsel, is reported at 729
F.3d 62 and is reprinted at App. 83a-87a. The
District Court Order denying the 2255 petition is
reprinted in the Appendix at 5a and its order denying
a certificate of appealability is at 3a. The Second
Circuit’s Order denying a certificate of appealability
is printed at 1a and the Second Circuit’s denial of
rehearing and rehearing en banc of the denial of a
certificate of appealability is reprinted at 25a.
Because the rebuttal of the government arguments
on the 2255 petition, and the motion for a certificate
of appealability and for reconsideration of the denial
of a certificate are helpful for an understanding of
this Petition, the Reply memorandum on the 2255
application is reprinted at 57a; the motion to the
Second Circuit for a certificate of appealability, and
the motion for reconsideration of the denial of the
certificate are reprinted at App. 34a and 27a.

2
JURISDICTION
The court of appeals first affirmed the defendantPetitioners’ convictions on August 30, 2013. The
District Court denied 2255 relief, and denied a
certificate of appealability, on August 12, 2019 and
August 16, 2019. The Court of Appeals denied a
certificate of Appealability on December 10, 2019, and
denied a petition for rehearing and rehearing en banc
on March 10, 2020.
By order dated March 19, 2020, this Court
extended the time to petition for certiorari to 150 days
from the date of the denial of rehearing. This Court
has jurisdiction pursuant to 28 U.S.C. §1254(1).
RELEVANT CONSTITUTIONAL PROVISIONS
AND STATUTES
The principal statute at issue is 28 U.S.C.
§2255 provides, in pertinent part:

(a) A prisoner in custody under
sentence of a court established by Act of
Congress claiming the right to be
released upon the ground that the
sentence was imposed in violation of the
Constitution or laws of the United
States, … or is otherwise subject to
collateral attack, may move the court
which imposed the sentence to vacate,
set aside or correct the sentence.
(b) Unless the motion and the files
and records of the case conclusively show
that the prisoner is entitled to no relief,

3
the court shall cause notice thereof to be
served upon the United States attorney,
grant a prompt hearing thereon,
determine the issues and make findings
of fact and conclusions of law with
respect thereto. If the court finds that
the judgment was rendered without
jurisdiction, or that the sentence
imposed was not authorized by law or
otherwise open to collateral attack, or
that there has been such a denial or
infringement of the constitutional rights
of the prisoner as to render the judgment
vulnerable to collateral attack, the court
shall vacate and set the judgment aside
and shall discharge the prisoner or
resentence him or grant a new trial or
correct the sentence as may appear
appropriate.
***
(d) An appeal may be taken to the court
of appeals from the order entered on the
motion as from a final judgment on
application for a writ of habeas corpus.

The statute requiring a certificate of appealability is
28 U.S.C. §2253(c), which states in pertinent part:

(c) (1) Unless a circuit justice or judge
issues a certificate of appealability, an
appeal may not be taken to the court of
appeals from—

4
…
(B) the final order in a proceeding
under section 2255.
(2) A certificate of appealability may
issue under paragraph (1) only if the
applicant has made a substantial
showing of the denial of a constitutional
right.

The Fifth Amendment provides that life, liberty, and
property may not be taken without Due Process of
Law. It states:
Amendment V, U.S. Constitution
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment of
a grand jury, except in cases arising in
the land or naval forces, or in the militia,
when in actual service in time of war or
public danger; nor shall any person be
subject for the same offense to be twice
put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a
witness against himself, nor be deprived
of life, liberty, or property, without due
process of law; nor shall private property
be taken for public use, without just
compensation.

5
The
Sixth
Amendment
guarantees
effective
assistance of counsel in one’s defense. It states:

Amendment VI, U.S. Constitution
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and
public trial, by an impartial jury of the
state and district wherein the crime
shall have been committed, which
district shall have been previously
ascertained by law, and to be informed of
the nature and cause of the accusation;
to be confronted with the witnesses
against him; to have compulsory process
for obtaining witnesses in his favor, and
to have the assistance of counsel for his
defense.
STATEMENT OF THE CASE
In 2013, the Second Circuit vacated sentences
including forfeitures and stated it was not reaching
allegations of ineffective assistance of counsel raised
by Petitioners Alberto Vilar and his business partner
Gary Tanaka. At the same time, it affirmed (729 F.3d
62) convictions sounding in securities law /investment
advisor fraud.
Petitioners were founders, sole 50/50 corporate
owners, and sole managers of a long-successful

6
regulated
investment
management
business,
Amerindo Investment Advisors Inc. (AIA). They also
co-owned and operated related but wholly separate
foreign investment companies, one in Panama and
one in the UK, both of which pre-dated the US
Advisory business.
On appeal, Appellants (now petitioners) argued
that under this Court’s then-recent ruling in Morrison
v. National Australia Bank Ltd., 561 U.S. 24 (2010) -decided after Petitioners’ trial, which limited the
reach of the anti-fraud provisions of the Securities
laws – the convictions had to be vacated. Because
trial counsel failed to argue anything about
extraterritoriality, the Court of Appeals denied a new
trial under the “plain error” rule, holding that “this
unchallenged error did not affect the outcome of the
proceedings, and therefore did not affect Vilar and
Tanaka’s substantial rights.
Based solely on the trial record (the only record
it considered – a record shaped by ineffective counsel),
and based solely on the fact that three purchasers
were physically present in the United States when
they purchased foreign-created private investments
from a foreign investment company, the Second
Circuit held that the three purchases of the foreign
securities from Petitioners’ foreign company were
“domestic transactions”.1
The Second Circuit wrote: “Although the District Court erred
by failing to require proof of domestic securities transactions,
that error was not ‘plain,’ because the evidence in the record
demonstrated that Vilar and Tanaka engaged in fraud in
connection with a domestic purchase or sale of securities, and
therefore, the error did not affect the outcome of the proceedings
or affect Vilar and Tanaka's substantial rights.” United States v.
Vilar, 729 F.3d 62, 99 (2d Cir. 2013).
1

7
On the direct appeal, the Second Circuit also
vacated all the sentences, including the forfeitures for
a variety of errors.
The Second Circuit expressly declined to reach
the claim of ineffective assistance of counsel (87a)).
Appellate Counsel had argued that trial counsel
exhibited many failings aside from ignoring
extraterritorial evidence. Most notably that trial
counsel failed to argue to the jury or tell the Court
that, contrary to the government’s pre-trial
assertions, there was no missing money; all investor
accounts (frozen since the 2005 arrests) were intact.
Counsel had not known this because he did no
investigation nor prepared for “forfeiture”. (After the
evidence was closed, counsel Colton had asked what
was supposed to happen in connection with
“forfeiture.” At Tr. 5634:
“MR. COLTON: Just a question. I
frankly don't know the answer but I
could research it. Does the jury typically
get the forfeiture allegations in an
indictment? Should we be sending that
back?”)
This led to the unfair belief on the part of the
district judge and the jury that there were losses to
investors, when in fact there were none. Counsel
shockingly agreed to forfeit all of the restrained
assets, without knowing what was there or how much
was owed to investors. All of defendants’ assets have
been restrained since 2005 and remain restrained
pursuant to these counsels’ unauthorized agreement.

8
The Second Circuit, in affirming the
convictions (and vacating the sentences and declining
to reach issues of counsel’s failures at trial) held
specifically that the defendants could raise such
issues concerning the effect of counsel’s alleged
failures in a subsequent 2255.
That is what
Petitioners have attempted to do since 2013, to this
day.
Petitioners seek review of the ruling by the
Second Circuit denying a certificate of appealability,
affirming, without analysis, the trial court’s ruling
that an opportunity to litigate the Fifth and Sixth
amendment claims should be denied solely on the
basis of the trial record -- when this Court has made
clear that a trial record skewed by ineffective
assistance of counsel is not the proper record to
consider in a 2255 proceeding. Massaro v. United
States, 538 U.S. 500 (2003) (Constitutional inquiry in
Strickland v. Washington, 466 U. S. 668 (1984),
requires use of an expanded record to determine
issues of ineffective assistance. A trial record shaped
by counsel whose effectiveness is questioned is
insufficient to decide either prong of Strickland
analysis); accord, Andrus v. Texas, 590 U.S. __ (June
15, 2020) (summarily vacating and remanding so that
the Texas Court of Criminal Appeals could review the
abundant evidence of ineffective assistance of counsel
and reassess prejudice, in that the “record makes
clear that Andrus has demonstrated counsel’s
deficient performance under Strickland – and holding
that the Texas Court “may have failed properly to
engage with the follow-on question whether Andrus
has shown that counsel’s deficient performance
prejudiced him”) .

9
The Multiple 2255 Petitions.
Based on the original appellate arguments
concerning trial counsel’s failings to develop a record
or rebut evidence, and additional material developed
since that time including the emerging and
incontrovertible FACT that (contrary to the premise
of the case undefended at trial, there was NO missing
money. NO financial loss and NO client losses) -Petitioners filed 2255 petitions supporting vacatur of
the convictions on constitutional grounds, three times.
Counsel argued that trial counsel’s failure to have
investigated these assets, frozen since 2005,
prevented defendants an effective defense.
Trial counsel did not argue or show the jury –
because counsel did not know – that investors had
made profits now, and that those profits, apparent on
the Amerindo Panama books and records, were real
and intact. In Petitioners’ view this is something the
jury should have known because it bears on a lack of
“intent to defraud.” But counsel did not know, did
not investigate, did not prepare for forfeiture or “loss”
penalties, and so did not effectively defend the case.
Appellate/2255 counsel also showed that trial
counsel (who also had represented Petitioner Tanaka
on the “parallel” SEC civil case) did not pay attention
to the civil case. The gist of the allegations concerned
a private investment called the “SBIC.”
The
government initially charged that this investment
“did not exist.”
Between the SEC’s initial and
amended complaints, the SEC had silently removed
the accusation that the “SBIC” investment was a
“sham” that “did not exist.”
This false allegation
underlay the entire proceeding in this case.
Trial counsel should have known, but said
nothing about the fact (if he even noticed) that the

10
SEC’s charging documents had withdrawn the
accusation.
The SEC and prosecutor also said
nothing about it.
Despite knowing that the accusation was false,
the government thus continued to argue -- in
summation and in the Court of Appeals on direct
appeal – that the investment sold to investor Cates
“didn’t really exist” and that “they had just stolen her
money” (Summation Tr.5322, 05cr621); Government
Brief on appeal 10-521, arguing that the SBIC
venture sale to investor Cates must have been a “lie”
because the investment was a “non-existent” venture
(G.Brf.110), “did not exist” (G.Brf. 112), and was
“fictitious” (G.Brf. 114).
The prosecution’s false assertions were so
overwhelmingly ‘convincing’ that Petitioner’s own
counsel “conceded” at his sentencing that the “SBIC
venture was a sham” (Vilar appendix 114, Appeal 10521) – a concession to which the Second Circuit had
referred at oral argument, before vacating the
sentences entirely and directing Petitions to use a
2255 proceeding to reach these issues. (84a).
Appellate counsel also determined that trial
counsel never made use of the facts that SEC counsel
in New York in 2005 failed even to inform the
prosecutor about the SEC’s San Francisco regulatory
files which showed evidence that the SBIC
investment was “real.”
Again, the government
continued to argue that it did not exist.
Nor did defense counsel tell the jury that, in
December 2005, the SEC’s “monitor”, appointed to
oversee the US Advisory company charged originally
in 2005, found that there was nothing amiss at
Amerindo US. (DOC 48, 05cv5231, SEC v. Amerindo
et al.). Yet, the government pressed on, with charges

11
concerning defendants’ operation of their separate
offshore companies, and concerning sales of offshore
investments through an offshore investment company
to wealthy investors who in fact have gotten over
100% of their accounts returned. The government
has never accounted for wrongfully destroying the
successful flagship US company, either by offsetting
penalties or by acknowledging it in any way.
None of this has been reviewed by any court on
appeal because the district judge who presided at trial
(and continues to preside over forfeiture proceedings
and the parallel SEC case) has refused to vary his
view of the case, which was founded on unfair
prosecutorial hysteria in 2005, based on disdain for
the client.2
See, e.g., L.A. Times, July 5, 2005, discussing “billionaire opera
philanthropist and money manager Alberto Vilar” and reporting;
2

Vilar was arrested May 26 and indicted on charges of securities
fraud and money laundering for allegedly stealing $5 million
given to him to invest by his close friend Lily Cates, 67, the
estranged mother of actress Phoebe Cates, who is married to
actor Kevin Kline.
According to the indictment, Vilar, 64, spent almost all that
money in two weeks, making charitable donations, paying off
personal bills and wiring a sum to an account in Luxembourg.
The government suspects, said federal prosecutor David Esseks,
that the missing $5 million is “just the tip of the iceberg.”
***
A Cuban American with a gift for crunching numbers and
spotting trends, Vilar made his wealth by early investing in new
technology companies such as Microsoft, Oracle and AOL
through the New York-based Amerindo Investment Advisors, a
company he co-founded in 1980 with Gary Tanaka, 61. Tanaka
faces similar criminal charges.

12

Amerindo was recently managing $900 million, including
pension funds that included a $370-million Los Angeles Fire &
Police Pension System account. At its peak, in the late 1990s,
Amerindo managed $8 billion. Forbes magazine valued Vilar’s
personal fortune at $1.23 billion.
Big donations
For Vilar, who has been described as basically a loner, the
money enabled him to indulge his love of philanthropy,
particularly to opera groups.
Vilar gave away more than $200 million. Moreover, his pledges
in recent years, besides the one to Los Angeles Opera, included
$45 million to the Metropolitan Opera in New York, $50 million
to the John F. Kennedy Center for the Performing Arts in
Washington, D.C., roughly $36 million to the Royal Opera
House, Covent Garden, in London, $14 million to the Kirov
Opera in St. Petersburg, Russia, and $8 million to the
Washington Opera, also in the nation’s capital, where Domingo
is general director as well.
In gratitude, the Met chiseled his name in gold on its Grand
Tier. The Royal Opera created a “Vilar Young Artists” program
and added his name to its Floral Hall. There is a Vilar Center for
the Arts in Avon, Colo.
But all the adulation dried up as payments stopped coming. The
Amerindo Technology Fund imploded by 65% in 2000, then by
51% the year after.
***
Sitting in jail
Under the circumstances, it may not have been surprising that
none of his rich friends showed up to help him raise bail. He
wound up sitting in the Metropolitan Correction Center in
Manhattan until three people, including Kirov Opera conductor

13
The judge has allowed these unconstitutional
proceedings to play out regardless of what the posttrial evidence revealed. The denial of the 2255 and
the denial of the certificate of appealability is part of
this unyielding playbook. The Second Circuit has also
allowed this wrong to continue, by agreeing that
Petitioners had not even stated substantial grounds
to pursue a 2255 appeal, though the same court had
said in 2013 that the allegations of ineffective
assistance of counsel should be pursued through a
separate 2255.
Ruling on the 2255 – on the trial record
alone -- and denial of Certificate of
Appealability
The trial judge (who was elevated to the Second
Circuit in 2018 but who retains the continuing
Valery Gergiev, came forward with $1.6 million in cash toward a
$4-million personal recognizance bond.
***
“He wanted his name in lights, OK?” Barry Tucker, president of
the New York City-based Richard Tucker Music Foundation, told
National Public Radio’s “All Things Considered” in June. “And
he got his name in lights temporarily, but that’s it.”
“He was not, how shall I say, quiet, about his giving,” soprano
and former Metropolitan Opera Chairwoman Beverly Sills told
the New York Times in May. “I think that was a turnoff for other
members of the board.”
“He’s a miserable human being and a basic scumbag,” Donald
Trump told the Washington Post in June. “But he gave millions
to charities and they’ve treated him like garbage. I think that’s
terrible.”

14
district court proceedings) declined to rule on the first
two 2255 petitions filed by Petitioners while they
awaited re-sentencing (twice) and concurrently tried
to defend the “parallel” SEC case – in which they
have been prevented from hiring counsel because
their funds were still frozen (and remain frozen
though all investors were repaid over 100% of their
accounts from frozen assets). In rejecting the first
two 2255 applications, the trial judge cited procedural
reasons, including that the petition was too long, and
then that resentencing proceedings were ongoing.
As to this third filing of the 2255 in 2017 – the
denial of a certificate of appealability as to which is at
issue here (as well as the standard (or lack of a
standard) used to deny it)—the judge directed the
government to respond. The government responded,
offering no affidavit or statement by trial counsel or of
any SEC investigators rebutting any factual
allegations. There was and is no “defense” to the
accusations of ineffective failure to have investigated
assets, or other matters, or to allegations of
government withholding and use of false material.
The prosecutors had no answer to the question: how
it could possibly be deemed a reasonable strategy to
consent to restrain and forfeit all their clients’ assets,
conceding “losses”, without evaluating “actual losses”.
Instead, the prosecutors argued procedural
defenses, claiming that the “mandate rule” required
dismissal of these claims – arguing that the Second
Circuit had already determined the issues Petitioners
were raising. This, though the Court of Appeals
specifically “passed” on deciding claims of ineffective
assistance of counsel. (729 F.3d at 99; 84a, 87a).
Petitioners argued in reply (see DOC 765,
05cr521, 5/3/2017; 57a) that the “mandate rule” did

15
not preclude relief: On a claim involving ineffective
assistance of counsel in connection with the prior
proceedings, there is necessarily a different record.
See 28 U.S.C. §2255 Rules; Massaro v. United States,
538 U.S. 500 (2003) (“The evidence introduced at trial
… will be devoted to guilt or innocence issues, and the
resulting record may not disclose the facts necessary
to decide either prong of the Strickland [v.
Washington, 466 U. S. 668] analysis. …”)
Two years after the 2255 Petition was filed, the
District Court denied the petition (5a) , holding that
most claims, including ineffective assistance of
counsel, were barred by the mandate rule because of
this Court’s conclusion on the 2013 direct appeal, and
that as to any claim not barred procedurally -including the failure to develop “certain defenses” and
to “cross-examine government witnesses on certain
topics” -- “Petitioners do not satisfy the Strickland
standard” as to ineffective assistance of counsel.”
In adjudicating this 2255 Petition, the District
Court expressly stated that he was relying exclusively
on the trial record. He wrote (6a, n.1) that he took
the “facts” from the “trial transcript …, exhibits
introduced at trial, and the Second Circuit’s prior
decisions in this case, with all inferences drawn in
favor of the government.”
That is, he used,
improperly, a “sufficiency of the evidence” standard.
Judge Sullivan’s ruling that, even if claims
were not procedurally barred, “they would still fail on
the merits” also rested on his analysis of solely the
trial record. For instance, the judge characterized
(15a) Petitioners “first” argument as a claim that the
SBIC investment purchased by investor Cates from
Amerindo Panama was not a `sham’ “and that
consequently, Vilar did not intend to steal from Lily

16
Cates” (emphasis added).
He wrote (18a) that
Petitioners “cannot establish” ineffective assistance
because of the “extensive evidence presented at
trial”, based on which, he wrote, Petitioners “cannot
show that trial counsel’s overall strategy focusing on
intent to defraud, instead of advancing ineffectual
arguments regarding the legitimacy of the SBIC, was
deficient performance.”
But trial counsel did not know that all of the
funds were properly invested in accounts that could
have been used, in 2005 when the case first began, to
pay all clients’ accounts. Moreover, in deciding a
certificate of appealability, the Court should not have
decided “the merits” since the only issue is whether a
claim is “debatable”.)
And, as to “intent to defraud”, the District
Court’s ruling concerning trial counsel’s “fail[ure] to
investigate the value of the Amerindo Panama assets
or make any submission about forfeiture or
restitution,” is mystifying. Given the importance of
loss, restitution, and forfeiture, as well as intent, it is
per se ineffective to have failed to know the amount of
the frozen assets and the value of investor claims.
The district judge excused counsels’ failures
because “counsel did ultimately contest the loss
amount calculated by the government” (20a (citing
one pre-sentencing letter)).
He called it a
“reasonable, strategic choice” to have failed to
advance arguments at sentencing. The district judge
did not comment on the argument that the jury did
not know, but should have known, that not only did
investors earn significant profits in the past, but all of
their promised profits were intact and that all the
money was frozen in place.

17
Additionally, reliance on defense strategy could
not be right. In response to the 2255 petition, trial
counsel submitted no statement. Counsel never said
that it was his “strategy” to focus on “intent to
defraud” to the exclusion of the expanded evidence.
When the issue was raised as to counsel’s failure to
use available material and failure to investigate
assets and claims, counsel said nothing.
The judge then issued an order denying a
certificate of appealability and, stating that an any
appeal “would not be taken in good faith” also denied
forma pauperis relief. (4a).
Certificate of Appealability litigation
Petitioners sought a certificate of appealability
(COA) from the Second Circuit, reminding that the
Circuit had specifically declined to address whether
counsel was ineffective but specifically noted a 2255
would be necessary to resolve the questions. (84a)
Petitioners thus challenged the ruling that the “law of
the case” precluded 2255 review. “Law of the case”
cannot bar the ineffective assistance claims never
decided on any appeal. Mui v. United States, 614
F.3d 50, 53 (2d Cir. 2010) (mandate rule “bars claims
raised and resolved on direct appeal”).
The “law-of-the-case” doctrine does not extend
to a habeas petitioner’s ineffective assistance of
counsel claim just because a related issue was
previously decided on appeal. Neither the district
court nor government cited to any case where “law of
the case” was found to apply in such circumstance.
Ineffective assistance of counsel was never resolved.
That there was “sufficient evidence” on the
trial and appellate record does not answer questions
of counsel’s effectiveness (or the SEC’s complicity in
hiding and failing to correct false information about

18
Amerindo Panama and the investments its clients
purchased.) The record is and was expanded in this
2255 proceeding.
Petitioners also cited Massaro v. United States,
538 U.S. 500 (2003), in which this Court held: “When
a claim is brought on direct appeal, appellate counsel
and the court must proceed on a trial record that is
not developed precisely for, and is therefore often
incomplete or inadequate for …litigating or
preserving the claim. … [E]vidence introduced at trial
… will be devoted to guilt or innocence issues, and the
resulting record may not disclose the facts necessary
to decide either prong of the Strickland analysis.…”
Undeveloped evidence demonstrates valid
defenses and defenses should have been decided by a
jury on a full record. At least there is a substantial
showing of the denial of a constitutional right
The Second Circuit denied a certificate,
affirming the district court despite the argument (and
showing) that Judge Sullivan, sitting as district
judge, used the wrong standard. The denial of an
opportunity to appeal an ineffective assistance of
counsel claim cannot be made on the trial record.
In denying a certificate, the Second Circuit did
not rule on the argument that Judge Sullivan had
used the wrong standard. It offered no reasons for
affirming the denial, merely stating, in a truncated
fashion:
Appellants move for a certificate of
appealability, in forma pauperis status,
and appointment of counsel. Upon due
consideration, it is hereby ORDERED
that the motions are DENIED and the
appeal
is
DISMISSED
because

19
Appellants have not “made a substantial
showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c); see also
Miller-El v. Cockrell, 537 U.S. 322, 327
(2003)
(discussing
certificate
of
appealability standard). [2a]
Petitioners moved for reconsideration. They
argued that this Court’s 2013 affirmance/vacatur
order (United States v. Vilar, 729 F.3d 62) already
constituted “encouragement to proceed further” on
the serious claims of ineffective assistance, within the
meaning of Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). In the 2013 ruling, the Second Circuit had
affirmed the convictions on the trial record, but (a)
vacated all sentences, including forfeiture, and (b)
ruled specifically that the Court was not reaching the
claims of ineffectiveness of counsel and suggested the
need for a 2255. United States v. Vilar, 729 F.3d 62
(2d Cir. 2013) (84a, 87a).
The Second Circuit denied rehearing and
rehearing en banc. (25a). The denial of a COA to
continue this litigation means that no court has
considered the expanded record.
No court has
considered the claim of ineffective assistance of
counsel on the merits even though in 2013, the
Second Circuit had directed and encouraged pursuit
of a 2255. Petitioners have been denied their only
opportunity to assert their Fifth Amendment and
Sixth Amendment rights with a full record.

20

REASON TO GRANT THE WRIT
Certiorari
should
be
granted
because reasonable jurists could
unquestionably
debate
the
circumstances
identified
by
petitioners
as
constituting
ineffective assistance of counsel. In
relying solely on the trial record to
deny claims of ineffective assistance
of counsel, the trial court, and the
Court of Appeals, failed to follow
Supreme Court cases that make
clear that a trial record is not
sufficient for review of habeas
claims.
This Court’s precedent is clear.
A COA
involves only a threshold analysis and preserves full
appellate review of potentially meritorious claims.
Thus, “a prisoner seeking a COA need only
demonstrate ‘a substantial showing’” that the district
court erred in denying relief. … This “threshold
inquiry” is satisfied so long as reasonable jurists could
either disagree with the district court’s decision or
“conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El
v. Cockrell, 537 U.S. 322, 327, 336 (2003) (quoting
Slack v. McDaniel, 529 U.S. 473, 484 (2000) and 28
U.S.C. §2253(c)(2)).
A COA is not contingent upon proof “that some
jurists would grant the petition for habeas corpus.

21
Indeed, a claim can be debatable even though every
jurist of reason might agree, after the COA has been
granted and the case has received full consideration,
that petitioner will not prevail.” Id. at 338. The sole
question for a Court of Appeals considering a COA is
“the debatability of the underlying constitutional
claim [or procedural issue], not the resolution of that
debate.” Id. at 342.
Justice Scalia, in a concurrence in Miller-El,
recognized (id. at 348) that a COA is required when
the district court’s denial of relief is not
“undebatable”). (emphasis added) Accord, Buck v.
Davis, 137 S. Ct. 759 (2017).
In this case, it cannot be said, looking at the
habeas record, that relief is “not undebatable.” “[A]
claim can be debatable even though every jurist of
reason might agree, after the COA has been granted
and the case has received full consideration, that
petitioner will not prevail.” Miller-El v. Cockrell,
supra.
Petitioners, respectfully, have “demonstrated
that reasonable jurists would find the district court's
assessment of the constitutional claims debatable or
wrong." They have shown that it is improper to limit
consideration to solely the trial record (shaped by
ineffective counsel).
Since Judge Sullivan (sitting as district judge)
did just that -- used only the incomplete trial record - “reasonable jurists” on the Court of Appeals cannot
rely on the district court’s assessment of the
constitutional claims.
The Second Circuit here did not comment on
the argument (see Motion for COA and Motion for
reconsideration of denial of COA) that the district
judge improperly refused to consider the expanded

22
record as required under Massaro v. United States,
538 U.S. 500 (2003), supra.
As argued in Andrus v. Texas, supra, a
truncated denial of relief deprives a petitioner of
relief he is due. The summary denial of a COA by the
Second Circuit fails to accord Due Process, because it
failed to account for the evidence amassed in the
habeas proceedings. The appeals court’s reliance on a
trial record shaped by trial counsel’s ineffective
representation works a deprivation of Due Process
and the right to effective assistance of counsel.
This Court should grant certiorari and
summarily reverse the denial of the COA, or at least
grant certiorari to establish a standard for petitions
when, as here, a Court of Appeals has already ruled
that Petitioner should pursue ineffective assistance of
counsel claims by means of a 2255. Petitioners have
made at least an arguable showing of the denial of the
constitutional right to effective assistance of counsel.
The Second Circuit, by issuing a ruling without
analysis of the standard (“the trial record”) (mis)used
by Judge Sullivan sitting as district court judge,
improperly and unfairly deprived Petitioners of even
one opportunity to litigate at least arguably
meritorious contentions of ineffective assistance of
counsel and misconduct in the use of false evidence by
the government -- based on the expanded 2255 record
that no court has yet reviewed.
This case is of huge importance to the very
concept of habeas corpus. As observed by Justice
Sotomayor in her dissent from the denial of certiorari
in McGee v. McFadden, 139 S. Ct. 2608 (2019), federal
courts handle thousands of noncapital habeas
petitions each year (citing 2012 Federal Sentencing
Reporter study). As she wrote:

23
Unless judges take care to carry out the
limited COA review with the requisite
open mind, the process breaks down. A
court of appeals might inappropriately
decide the merits of an appeal, and in
doing so overstep the bounds of its
jurisdiction. See Buck, 580 U. S., at ___,
… (slip op., at 13); Miller-El, 537 U. S.,
at 336-337 …. A district court might fail
to recognize that reasonable minds could
differ. Or, worse, the large volume of
COA requests, the small chance that any
particular petition will lead to further
review, and the press of competing
priorities may turn the circumscribed
COA standard of review into a rubber
stamp ….
The decision on a certificate of appealability by
a Court of Appeals is the last safeguard of a criminal
defendant wrongly convicted to have his day in court
on a claim of ineffective assistance of counsel. The
Second Circuit, by relying on their colleague’s
conclusion that Petitioners’ claims would fail on the
merits because of the trial record, failed to apply the
law and deprived Petitioners of Due Process rights.

24
CONCLUSION
This Court should grant certiorari and
summarily reverse and vacate the denial of a COA to
litigate these matters on a full and proper record, or
should grant certiorari and set a briefing schedule to
argue the appropriate standards for a COA.
Dated: July 27, 2020
/s/Vivian Shevitz
Counsel of Record
Counsel for Petitioners
46 Truesdale Lake Drive
South Salem, NY 10590
914-763-2122
vivian@shevitzlaw.com

APPENDIX

1a
A the united
Appendix A —Appendix
ORDER of
states court of appeals FOR THE SECOND
CIRCUIT, FILED DECEMBER 10, 2019, DENYING
CERTIFICATE OF APPEALABILITY
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
19-2505
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 10th day of December, two thousand
nineteen.
Alberto William Vilar,
Gary Alan Tanaka,
Plaintiffs-Appellants,
v.
UNITED STATES OF AMERICA,
Defendant-Appellee.
Present: Robert D. Sack
Denny Chin,
Joseph F. Bianco
		Circuit Judges
Appellants move for a certificate of appealability,
in forma pauperis status, and appointment of counsel.

2a
Appendix A
Upon due consideration, it is hereby ORDERED that the
motions are DENIED and the appeal is DISMISSED
because Appellants have not “made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c);
see also Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)
(discussing certificate of appealability standard).
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court
/s/				

3a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK, FILED AUGUST
16, 2019, DENYING CERTIFICATE OF
APPEALABILITY AND FORMA
PAUPERIS STATUS
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
ALBERTO VILAR AND GARY TANAKA,
Petitioners,
-vUNITED STATES OF AMERICA,
Respondent.
UNITED STATES OF AMERICA,
-vALBERTO VILAR AND GARY TANAKA,
Defendants.
No. 17-cv-1491 (RJS)
ORDER
No. 05-cr-621 (RJS)
ORDER

4a
Appendix B
RICHARD J. SULLIVAN, Circuit Judge:
On August 2, 2019, the Court issued an Order denying
the above-referenced petitions for a writ of habeas
corpus pursuant to 28 U.S.C. § 2255. (17-cv-1491, Doc.
No. 19.) Because the Court concludes that Petitioners
have not “made a substantial showing of the denial of a
constitutional right,” the Court will not issue a certificate
of appealability. See 28 U.S.C. § 2253(c)(2); see also Love
v. McCray, 413 F.3d 192, 195 (2d Cir. 2005). The Court
cettifies that any appeal from this order would not be taken
in good faith and therefore in forma pauperis status is
denied for the purpose of an appeal. See 28 U.S.C. § 1915(a)
(3); Coppedge v. United States, 369 U.S. 438,444-45 (1962).
The Clerk ofthe Court is respectfully directed to a mail
a copy of this order to Petitioners, and to terminate the
motions pending at 15-cr-621, document numbers 805,
806, 807, and 808.
SO ORDERED.
Dated: August 16, 2019
New York, New York
s/				
RICHARD J. SULLIVAN
UNITED STATES CIRCUIT
JUDGE
Sitting by Designation

5a
Appendix &
C ORDER of the
Appendix C — OPINION
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK, FILED
AUGUST, 2, 2019, DENYING 2255 PETITION
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
No. 17-cv-1491 (RJS)
ALBERTO VILAR and GARY TANAKA,
Petitioners,
-vUNITED STATES OF AMERICA,
Respondent.
––––––––––––––––––––––––––––––
No. 05-cr-621 (RJS)
UNITED STATES OF AMERICA
-vALBERTO VILAR and GARY TANAKA,
Defendants.
August 2, 2019, Decided
August 2, 2019, Filed

6a
Appendix C
OPINION & ORDER
RICHARD J. SULLIVAN, Circuit Judge:
Petitioners Alberto William Vilar and Gary Tanaka
bring this petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2255, seeking to vacate, set aside, or correct
Vilar’s 120-month sentence and Tanaka’s 72-month
sentence imposed by the Court on April 24, 2014. (05-cr621 Doc. No. 756 (“Pet.”).) For the reasons set forth below,
the petition is denied.
I. Background 1
The Court assumes the parties’ familiarity with the
underlying facts and procedural history of this case,
and therefore offers only a short summary of each for
the purposes of this motion. In 1986, Vilar and Tanaka
together founded Amerindo Investment Advisors Inc.
(“Amerindo U.S.”), an investment adviser registered with
the U.S. Securities and Exchange Commission (“SEC”).
See United States v. Vilar, 729 F.3d 62, 68 (2d Cir. 2013).
1. The following facts are taken from the trial transcript
(“Tr.”), exhibits introduced at trial, and the Second Circuit’s prior
decisions in this case, with all inferences drawn in favor of the
government. See, e.g., United States v. Gomez, 644 F. Supp. 2d 362,
366 (S.D.N.Y. 2009) (Chin, J.). Unless otherwise noted, citations to
the docket sheet refer to the docket in the criminal case, 05-cr-621
(RJS). In ruling on this motion, the Court has also considered the
Petition, the government’s Opposition to the Petition for Vacatur
(Doc. No. 764 (“Opp’n”)), and Petitioners’ Reply Memorandum
(Doc. No. 765 (“Reply”)).

7a
Appendix C
Vilar and Tanaka also founded Amerindo Investment
Advisors, Inc. (“Amerindo Panama”), a corporation
organized under the laws of the Republic of Panama, and
Amerindo Investment Advisors (UK) Ltd. (“Amerindo
U.K.”), a United Kingdom corporation. Id.
Beginning in July 1986 and until at least May 2005,
Vilar and Tanaka offered clients the opportunity to
invest in “Guaranteed Fixed Rate Deposit Accounts”
(“GFRDAs”) through their funds. Id. Vilar and Tanaka
promised investors that the GFRDA program would
receive a high fixed rate of interest over a set time period
and that “the overwhelming majority of the GFRDA
funds would be invested in high-quality, short-term
deposits, including U.S. Treasury bills.” Id. Instead, they
invested the entirety of the funds in high-risk technology
and biotechnology stocks. Id. Thus, “when the so-called
dot-com bubble ‘burst’ in the fall of 2000, the value of the
investments held by the GFRDAs dropped precipitously”
so that Vilar and Tanaka were unable to pay the promised
rate of return, and several GFRDA clients lost millions
of dollars. Id.
Subsequently, in June 2002, Vilar and Tanaka offered
their client Lily Cates the opportunity to invest in their
Small Business Investment Company (“SBIC”). Id.
Vilar told Cates that he and Tanaka had been approved
for an SBIC license, which would allow the SBIC to
obtain matching funds from the federal government’s
Small Business Administration (“SBA”) for the SBIC’s
investments, when, in fact, they had never received such
a license, and their applications for a license had been
repeatedly denied. Id.

8a
Appendix C
On June 20, 2002, Cates invested $5 million in the
Amerindo SBIC. Her funds were deposited into a bank
account in the name of a Panamanian corporation called
“Amerindo Management Inc.” (“AMI”). Id. at 69. Over
the next two years Vilar and Tanaka used Cates’s SBIC
investment account for their own personal and corporate
obligations. Id.
In early 2005, Cates asked Vilar to return her
investment and close her account. Id. When Vilar informed
her that she would need to address her request to
Amerindo Panama, Cates reported Vilar and Tanaka to
the SEC. Id. On August 15, 2006, Vilar and Tanaka were
indicted on twelve counts, charging them with:
(1) [C]onspiracy to commit securities fraud,
investment adviser fraud, mail fraud, wire
fraud, and money laundering, in violation of 18
U.S.C. § 371 (Count One); (2) securities fraud,
in violation of 15 U.S.C. §§ 78j(b), 78ff and 17
C.F.R. § 240.10b-5 (Counts Two and Three);
(3) investment adviser fraud, in violation of
15 U.S.C. §§ 80b-6 and 80b-7 (Count Four);
(4) mail fraud, in violation of 18 U.S.C. § 1341
(Count Five); (5) wire fraud, in violation of
18 U.S.C. § 1343 (Counts Six and Seven); (6)
money laundering, in violation of 18 U.S.C.
§ 1957 (Counts Eight through Eleven); and (7)
the making of false statements to the SEC, in
violation of 18 U.S.C. § 1001(a) (Count Twelve).
Id.

9a
Appendix C
On September 22, 2008, Vilar and Tanaka were
tried before a jury in this Court. Id. On November 19,
2008, after a nine-week trial, Vilar was convicted on
all twelve counts and Tanaka was convicted on Counts
One (conspiracy), Three (securities fraud relating to the
GFRDA scheme), and Four (investment adviser fraud). Id.
On February 5, 2010, the Court imposed a sentence
of 108 months’ imprisonment and a $25,000 fine on Vilar,
and on February 10, 2010, the Court imposed a sentence
of 60 months’ imprisonment and a $25,000 fine on Tanaka.
(Doc. Nos. 421, 425). In addition, on April 7, 2010, the Court
ordered Vilar and Tanaka to pay nearly $35 million in
restitution and more than $54 million in forfeiture. (Doc.
Nos. 436-439.)
Petitioners thereafter appealed to the Second Circuit,
raising a variety of challenges to their convictions and
sentences. On August 30, 2013, the Second Circuit
affirmed Petitioners’ convictions, but remanded to the
District Court for resentencing. Vilar, 729 F.3d at 96. At
the April 24, 2014 resentencing, the Court determined that
Petitioners had “engage[d] in anti-social conduct following
the initial sentence” through behavior that “seemed
designed at every step to slow down the distribution
process and punish the investors, particularly those who
testified against [Petitioners] at trial.” (Doc. No. 694
(“Resentencing Tr.”) at 49-50.) Accordingly, the Court
imposed a sentence of 120 months’ imprisonment and a
$10 million fine on Vilar, and 72 months’ imprisonment
and a $10 million fine on Tanaka. (Doc. Nos. 685, 686.)
The Court also ordered forfeiture and restitution totaling
over $47 million. (Doc. Nos. 684, 687.)

10a
Appendix C
Follow ing the resentencing, Petitioners again
appealed to the Second Circuit. On March 23, 2016, the
Second Circuit again affirmed Petitioners’ conviction,
but vacated their $10 million fines. See United States v.
Tanaka, 644 F. App’x 36, 39 (2d Cir. 2016). On November
2, 2016, with the consent of all parties, the Court declined
to impose new fines on either defendant and otherwise
reimposed the sentences previously imposed in 2014. (Doc.
Nos. 753, 754.)
On February 24, 2017, Petitioners filed the instant
Petition, which was fully briefed on May 30, 2017. 2
2. On June 23, 2017, Petitioners submitted a supplemental
letter seeking to draw the Court’s attention two recent Supreme
Court opinions — Honeycutt v. United States, 137 S. Ct. 1626,
198 L. Ed. 2d 73 (2017), and Kokesh v. SEC, 137 S. Ct. 1635, 198
L. Ed. 2d 86 (2017) — as potentially providing “separate grounds
for relief” that are “apart from the pending 2255 [motion]” with
respect to “disgorgement and penalties in the SEC case” as well as
the Court’s forfeiture orders in the criminal case. (Doc. No. 766.)
Petitioners’ letter suggests that these cases “bear on the 2255
[motion].” (Id.) As Petitioners recognize, their reference to Kokesh
relates solely to the civil SEC action and has no bearing on the
instant motion. As to Honeycutt, Petitioner’s argument pertains
solely to non-custodial aspects of Petitioners’ sentences — a
challenge which is not cognizable on a motion for habeas relief. See
United States v. Rutigliano, 887 F.3d 98, 105 (2d Cir. 2018); United
States v. Munson, No. 06-cr-143 (JGK), 2019 U.S. Dist. LEXIS
6404, 2019 WL 188493, at *2 (S.D.N.Y. Jan. 14, 2019). Moreover,
any challenge to the forfeiture orders based on Honeycutt fails on
the merits, as discussed by the Court in the separately-docketed
opinion and order regarding the government’s preliminary
order of forfeiture as to substitute assets, which is being filed
concurrently with this opinion.

11a
Appendix C
Petitioners argue that their convictions should be vacated
because their trial counsel provided ineffective assistance
by failing to (1) argue that the securities fraud count
should be dismissed on statute of limitations grounds
(Pet. at 26), (2) raise certain defenses at trial (Pet. at
30-60), and (3) cross-examine government witnesses on
certain topics (Pet. at 27). Petitioners also argue that the
government impermissibly withheld Brady and Giglio
material. (Pet. at 61.)
II. Legal Standard
Under 28 U.S.C. § 2255, “a federal prisoner may move
the sentencing court to vacate, set aside, or correct the
sentence on the ground that such sentence was illegally
imposed.” Puglisi v. United States, 586 F.3d 209, 213
(2d Cir. 2009). Relief is generally available “only for a
constitutional error, a lack of jurisdiction in the sentencing
court, or an error of law or fact that constitutes a
fundamental defect which inherently results in a complete
miscarriage of justice.” United States v. Bokun, 73 F.3d 8,
12 (2d Cir. 1995) (internal citations and quotation marks
omitted). If proven, a claim of ineffective assistance of
counsel is a constitutional error that warrants relief under
§ 2255. United States v. Carmichael, 216 F.3d 224, 227 (2d
Cir. 2000) (citing United States v. Gordon, 156 F.3d 376,
381 (2d Cir. 1998)).
The Sixth Amendment right to counsel requires that
a criminal defendant be provided “the effective assistance
of counsel.” United States v. Daugerdas, 915 F. Supp. 2d
493, 495 (S.D.N.Y. 2013) (citing McMann v. Richardson,

12a
Appendix C
397 U.S. 759, 771 n.14, 90 S. Ct. 1441, 25 L. Ed. 2d 763
(1970)). This right to effective assistance applies equally
to trial counsel and appellate counsel. Aparicio v. Artuz,
269 F.3d 78, 95 (2d Cir. 2001) (citing Evitts v. Lucey, 469
U.S. 387, 396-97, 105 S. Ct. 830, 83 L. Ed. 2d 821 (1985)).
To prevail on an ineffective assistance of counsel claim, a
petitioner must prove that (1) his counsel’s performance
was deficient and (2) he was prejudiced by the deficient
performance. Gueits v. Kirkpatrick, 612 F.3d 118, 122
(2d Cir. 2010) (citing Strickland v. Washington, 466 U.S.
668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984)). An
attorney’s performance is considered deficient under
the Sixth Amendment only if it “fell below an objective
standard of reasonableness under prevailing professional
norms.” Parisi v. United States, 529 F.3d 134, 141 (2d Cir.
2008) (internal quotation marks and citations omitted).
In determining whether an attorney’s performance was
objectively unreasonable, however, a court must view the
attorney’s conduct in light of “the circumstances counsel
faced at the time of the relevant conduct. . . .” Id. (citations
omitted); see also McKee v. United States, 167 F.3d 103, 106
(1999) (“[A] court may not use hindsight to second-guess
counsel’s tactical choices.”) (internal quotation marks
and citations omitted). Yet even if a petitioner establishes
that his counsel’s conduct was objectively unreasonable,
he or she is also required to demonstrate prejudice,
which means that “there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466
U.S. at 694. While this prejudice prong “does not require a
showing that counsel’s actions more likely than not altered
the outcome,” it does require a petitioner to show that

13a
Appendix C
“[t]he likelihood of a different result [was] substantial, not
just conceivable.” United States v. Thornhill, 34 F. Supp.
3d 334, 361 (S.D.N.Y. 2014) (quoting Harrington v. Richter,
562 U.S. 86, 112, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011)).
III. Discussion
The government argues that the Petition should
be denied on two grounds: (1) the bulk of Petitioners’
arguments are procedurally barred by the Second Circuit’s
decision on direct appeal under the “mandate rule,” and
(2) Petitioners do not satisfy the Strickland standard with
respect to any of their allegations of ineffective assistance
of counsel. (Opp’n at 12-13.) The Court agrees.
A. Mandate Rule
The mandate rule “bars re-litigation of issues already
decided on direct appeal,” including “matters expressly
decided by the appellate court” as well as “issues impliedly
resolved by the appellate court’s mandate.” Yick Man
Mui v. United States, 614 F.3d 50, 53 (2d Cir. 2010). Here,
the majority of Petitioners’ claims are predicated on
arguments already rejected by the Second Circuit; they
are therefore barred by the mandate rule.
1. Statute of Limitations
Petitioners first argue that their counsel was
ineffective because they failed to argue that Count Three,
a securities fraud count related to investments in the
GFRDAs, fell outside the five-year statute of limitations

14a
Appendix C
established by 18 U.S.C. § 3282. (Pet. at 26.) But the
underlying issue on which this ineffective assistance claim
rests was previously raised in Petitioners’ first direct
appeal. (See Vilar First Appeal Br. 60-63 (“Point II: The
Statute of Limitations Plainly Barred Prosecution of
Count Three, the ‘GFRDA Fraud’”); Tanaka First Appeal
Br. 124-25 (“Point VI: Tanaka Joins in the Arguments of
His Co-Defendant Alberto Vilar”)). Moreover, the Second
Circuit rejected that argument on its merits. See Vilar,
729 F.3d at 67 (“Vilar and Tanaka’s remaining claims are
without merit.”). Because Petitioners cannot now relitigate
the statute of limitations issue, and given that “[f]ailure to
make a meritless argument does not amount to ineffective
assistance,” the Second Circuit’s prior ruling forecloses
the possibility of § 2255 relief on these grounds. United
States v. Regalado, 518 F.3d 143, 149 n.3 (2d Cir. 2008).
2. 	Failure to Develop Certain Defenses
Petitioners’ ineffective assistance claims based on
an alleged failure by counsel to develop certain defenses
similarly rest on contentions rejected by the Second
Circuit on direct appeal. Specifically, Petitioners argue
that trial counsel was ineffective because they did not
put forth the defenses that: (1) the SBIC investment was
not a “sham,” and that, consequently, Vilar did not intend
to steal from Lily Cates, (2) Amerindo Panama was not
a “sham” business, (3) the relevant conduct constituted
contract modification rather than fraud, and that (4) the
victims suffered no actual loss. Because each of these
defenses was rejected by the Second Circuit’s ruling on
direct appeal, any alleged failure by trial counsel to raise

15a
Appendix C
those defenses cannot form the basis of an ineffective
assistance claim.
Petitioners’ first argument is based on the previouslylitigated and rejected — notions that the SBIC investment
was legitimate and that the government failed to
sufficiently prove Vilar’s intent. Vilar’s first appeal
challenged the sufficiency of the evidence of his conviction
relating to the SBIC fraud. See Vilar, 729 F.3d at 92. In
reviewing the trial record, the Second Circuit found “more
than enough evidence for a reasonable juror to find, beyond
a reasonable doubt, that Vilar lied to Cates about the
nature of her SBIC investment, and in particular about the
status of the SBIC license.” Id. Further, the Second Circuit
clarified that “the government was under no obligation
to prove that [Vilar] wanted to steal Cates’s money, only
that he intended to defraud her in connection with the sale
of the SBIC investment;” on this issue, the Circuit found
that “[t]here is no doubt that there was sufficient evidence
of this intent to support the jury’s verdict.” Id. (internal
citations omitted). Thus, Petitioners’ present ineffective
assistance of counsel claim regarding the SBIC investment
amounts to an attempt to relitigate issues already decided
on direct appeal.
Similarly, Petitioners’ ineffectiveness claim based
on trial counsel’s supposed failure to defend against
allegations that Amerindo Panama was illegitimate
cannot stand, as the underlying issue was settled by the
Second Circuit in its ruling upholding the sufficiency of
the evidence supporting the convictions. See Vilar, 729
F.3d at 91-95. In particular, Petitioner’s argument that

16a
Appendix C
counsel should have invoked Section 30 of the Securities
Exchange Act to argue an extraterritoriality defense
(Pet. at 31) was considered and rejected by the Circuit.
See Vilar, 729 F.3d at 70 (“[W]e agree that the record in
this case confirms that Vilar and Tanaka did perpetrate
fraud in connection with domestic securities transactions,
and therefore we affirm their convictions.”).
Petitioners’ ineffectiveness claim predicated on trial
counsel’s alleged “fail[ure] to investigate and present
evidence of [a] contract modification defense” (Pet. at
46) was likewise advanced — and disposed of — on
direct appeal. (See, e.g., Vilar First Appeal Br. 84 (“Such
conduct . . . may have been a breach of contract, but it was
insufficient [to support a conviction] without proof of a lack
of an intention to perform ab initio, and there was none.”);
id. at 88 (“This was a breach of contract, not fraud.”); id.
at 95 (“In addition, although Vilar should not have had to
defend a contract claim in a federal criminal court, once
he was there, counsel should have defended him on the
ground that this was an anticipatory breach of contract,
gone wrong.”).) These arguments were also rejected by
the Second Circuit. See Vilar, 729 F.3d at 99 (“Vilar and
Tanaka’s remaining claims are without merit.”).
Finally, Petitioners contend that their counsel was
ineffective at sentencing for failing to investigate the value
of the Amerindo Panama assets or make submissions
about forfeiture or restitution prior to jury deliberations.
(Pet. at 53-60.) But this argument is a transparent attempt
to repackage Petitioners’ well-worn argument that there
was no loss — an argument considered and rejected by

17a
Appendix C
the Second Circuit when it affirmed Petitioners’ sentences
of imprisonment, restitution, and forfeiture. (See Tanaka
Second Appeal Br. 7, 33); see also Tanaka, 644 F. App’x at
40 (stating that “[w]e have reviewed defendants’ remaining
arguments and conclude they are without merit” and
affirming Defendants’ sentences of imprisonment,
restitution, and forfeiture).
The majority of Petitioners’ arguments are thus
barred by the Second Circuit’s direct appeal rulings, as
they rest on “matters expressly decided by the appellate
court” or “issues impliedly resolved by the appellate
court’s mandate.” Yick Man Mui, 614 F.3d at 53. But even
if these arguments were not procedurally barred, they
would still fail on the merits.
First, as to Petitioners’ statute of limitations argument,
Petitioners cannot satisfy either the performance or
prejudice prongs of Strickland. Petitioners contend
that because the last investment into the GFRDA was
on January 4, 2001, any fraudulent activity occurred
more than five years prior to the GFRDA charges. (Pet.
at 26.) But in cases concerning a scheme to defraud,
acts for the purpose of either “executing the scheme or
‘lulling’ victims to prevent them from complaining to
the authorities” constitute conduct in furtherance of the
scheme or conspiracy. United States v. Scop, 846 F.2d
135,138-39 (2d Cir. 1988) (citing United States v. Lane, 474
U.S. 438, 451-52, 106 S. Ct. 725, 88 L. Ed. 2d 814 (1986)).
Here, the trial record “contains ample evidence that . . .
Vilar and Tanaka continued to engage in conduct aimed
to reassure investors and prevent them from redeeming

18a
Appendix C
their investments within the five-year limitations period.”
Vilar, 729 F.3d at 87 n.22. “Evidence of continued . . .
reassurances to customers . . . was sufficient to permit
a rational jury to conclude that the conspiracy and
substantive scheme to defraud continued” into the statute
of limitations period. Scop, 846 F.2d at 139. The statute of
limitations defense is therefore nonviable, and Petitioners
cannot show that their attorneys’ decision not to argue for
dismissal on that meritless ground was either deficient
performance or prejudicial to their defense.
Likewise, Petitioners cannot establish that trial
counsel’s failure to develop defenses regarding the validity
of the SBIC investment constituted ineffective assistance.
In light of the extensive evidence presented at trial, which
established that Petitioners did not obtain the requisite
license for the SBIC (Tr. 1526-74,1667-68) and that Vilar
made misrepresentations about the SBIC to Cates (Tr.
2100-06), Petitioners cannot show that trial counsel’s
overall strategy of focusing on intent to defraud, instead of
advancing ineffectual arguments regarding the legitimacy
of the SBIC, was deficient performance; nor can they come
close to showing that “the result of the proceeding would
have been different” absent that decision. Strickland, 466
U.S. at 694.
The same is true of Petitioners’ claim of ineffective
assistance based on a failure to develop the defense that
Amerindo Panama was not a sham entity. Petitioners
now envision “a defense theory based on the truth of
the separateness of the defendants’ businesses and the
full reporting of Panama to the SEC since 1985.” (Pet.

19a
Appendix C
at 36.) Yet, as the government points out, the “fact that
Amerindo Panama was a separate entity as a legal
matter was never in dispute.” (Opp’n at 19.) Accordingly,
any complaint Petitioners now have with respect to trial
counsel’s framing of the issue amounts to a dispute over
trial strategy with the benefit of hindsight — a heartland
example of the type of argument that is insufficient to
demonstrate deficient performance under Strickland. See
McKee, 167 F.3d at 106.
Petitioners’ contention regarding trial counsel’s
failure to develop a contract modification defense also fails
to show ineffective assistance. As an initial matter, the
record reflects that trial counsel did, in fact, raise such a
defense. (See Tr. at 5462 (Petitioner Tanaka’s counsel, in
his summation, asking the jury to “send[] this case back
across the street with respect to Gary [Tanaka] in terms
of back into the contract case it should have been.”).) To the
extent that Petitioners argue that trial counsel should have
further developed this argument by providing “evidence to
demonstrate that contract disputes were being addressed
through accords and satisfactions and modified payouts”
and explaining to the jury “the concept of ‘efficient
breach’” (Pet. at 46, 49), this is ultimately a legal argument
that would have gotten no traction with the Court in light
of the ample evidence of Petitioners’ intent to defraud.
See U.S. ex rel. O’Donnell v. Countrywide Home Loans,
Inc., 822 F.3d 650, 652-53 (2d Cir. 2016) (emphasizing
contemporaneous fraudulent intent as the key factor that
elevates a breach of contract into fraud). Furthermore,
when directed at the jury, the contract “defense” amounts
to an argument for jury nullification. Needless to say, in

20a
Appendix C
light of the Second Circuit’s “categorical[] reject[ion]” of
“the idea that, in a society committed to the rule of law,
jury nullification is desirable or that courts may permit
it to occur when it is within their authority to prevent,”
defense counsel’s decision not to argue more vigorously for
jury nullification cannot constitute ineffective assistance
of counsel. United States v. Thomas, 116 F.3d 606, 614
(2d Cir. 2007); see also, e.g., United States v. Trujillo,
714 F.2d 102, 106 (11th Cir. 1983) (“[D]efense counsel may
not argue jury nullification during closing argument.”).
Counsel’s decision to focus on alternative defenses beyond
the contract modification defense thus falls comfortably
within the boundaries of reasonable trial strategy and
tactics. Such “[a]ctions or omissions by counsel that might
be considered sound trial strategy do not constitute
ineffective assistance.” United States v. Bayless, 201 F.3d
116, 130-31 (2d Cir. 2000) (citations omitted). Moreover,
since there was ample evidence of Petitioners’ fraud,
Petitioners do not come close to establishing prejudice
under Strickland’s second prong.
Petitioners’ claim that counsel was ineffective at the
sentencing stage for failing to investigate the value of
the Amerindo Panama assets or make submissions about
forfeiture or restitution likewise fails. First, defense
counsel did ultimately contest the loss amount calculated
by the government. (See, e.g., Doc. No. 352 at 1 (“[T]he
spurious guidelines analysis contained in the Presentence
Report should be rejected, principally because the victims
suffered no actual loss.”)). With respect to restitution,
Petitioners’ argument that trial counsel should have
sought “reliance” hearings (see Pet. at 58-60) is without

21a
Appendix C
basis in law, as the Second Circuit has held that “[r]eliance
. . . is not an element of a criminal case brought by the
government under Section 10(b) or Rule 10b-5.” Vilar, 729
F.3d at 88. Defense counsel’s reasonable, strategic choices
with respect to which arguments to advance at sentencing
cannot form the basis of an ineffective assistance claim.
But whether made or not, these arguments would not have
altered the outcome of the trial or sentencing, thereby
failing Strickland’s second prong as well.
Thus, each of Petitioner’s arguments — including
those that cannot justify habeas relief for the independent
reason that they are procedurally barred — lacks merit.
B. Petitioners Fail to Demonstrate
Ineffective Assistance
Although not procedurally barred, Petitioners’
two remaining arguments — (1) that trial counsel was
ineffective because they failed to adequately crossexamine witnesses and (2) that Brady/Giglio errors
necessitate a new trial — likewise fail on the merits.
1. Cross-Examination
Petitioners argue that trial counsel was ineffective
due to a failure to conduct adequate cross-examinations
of certain government witnesses. (Pet. at 27.) Specifically,
they allege that their attorneys should have conducted
a more extensive cross-examination of Lily Cates and
Lisa Mayer to “impeach” them and to “elicit positive
information.” (Id.) Yet Petitioners fall far short of

22a
Appendix C
establishing the performance prong of Strickland. As
an initial matter, the notion that defense counsel’s crossexamination of these witnesses was cursory is belied by
the trial transcripts, in which the cross-examinations
of witnesses Cates and Mayer run nearly 98 and 223
pages, respectively. (Trial Tr. at 2205-2301, 11601365,1374-1392.) Even if this were not the case, counsel’s
“[d]ecisions whether to engage in cross-examination, and
if so to what extent and in what manner, are . . . strategic
in nature.” United States v. Nersesian, 824 F.2d 1294,
1321 (2d Cir. 1987). As established in Strickland, to
succeed on an ineffective assistance of counsel claim, “the
defendant must overcome the presumption that, under the
circumstances, the challenged action ‘might be considered
sound trial strategy.” Strickland, 466 U.S. at 689.
“[T]he conduct of examination and cross-examination is
entrusted to the judgment of the lawyer, and. . . [the court]
should not second guess such decisions unless there is no
strategic or tactical justification for the course taken.”
United States v. Luciano, 158 F.3d 655, 660 (2d Cir. 1998).
Petitioners’ assertion that a different approach to crossexamination could have “put the case in a different light”
(Pet. at 27) falls far short of establishing the absence of
strategic or tactical justification for the method selected
by trial counsel. The robust cross-examination evident
in the record accords with defense counsel’s overarching
strategy of demonstrating the absence of criminal intent.
Petitioners therefore cannot satisfy the Strickland
standard, and habeas relief is not warranted on this basis.

23a
Appendix C
2. Brady/Giglio Errors
Petitioners also argue that they are entitled to habeas
relief on the basis of Brady/Giglio errors. The Court is
unpersuaded. Under Brady v. Maryland, 373 U.S. 83,
83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963), and its progeny,
including Giglio v. United States, 405 U.S. 150, 92 S. Ct.
763, 31 L. Ed. 2d 104 (1972), “[t]he government has a duty
to disclose all material evidence favorable to a criminal
defendant.” United States v. Triumph Capital Grp., Inc.,
544 F.3d 149, 161 (2d Cir. 2008). A Brady/Giglio violation
includes three elements: (1) the evidence at issue must be
favorable to the accused, because it is either exculpatory or
impeaching; (2) that evidence must have been suppressed
by the government, either willfully or inadvertently; and
(3) prejudice must have ensued, United States v. Douglas,
525 F.3d 225, 244-45 (2d Cir. 2008) (citing Strickler v.
Greene, 527 U.S. 263, 281-82, 119 S. Ct. 1936, 144 L. Ed.
2d 286 (1999)).
Petitioners assert, in conclusory fashion, that the
government withheld information that would have
undermined the government’s position that the SBIC
investment and Amerindo Panama were fraudulent. (Pet.
at 61.) Yet it is unclear what specific evidence Petitioners
reference. Furthermore, Petitioners’ argument fails
to establish the materiality of this evidence or, in the
face of the ample evidence in the record, suggest how
the alleged suppression could have prejudiced them.
Accordingly, Petitioners fail to establish a Brady violation
or entitlement to habeas relief.

24a
Appendix C
IV. Conclusion
For the foregoing reasons, Petitioners have failed to
establish their entitlement to habeas relief pursuant to 28
U.S.C. § 2255. Accordingly, IT IS HEREBY ORDERED
THAT the Petition is denied.
The Clerk of Court is respectfully directed to
terminate the motions pending at document numbers 755
and 756 in case No. 05-cr-621 and to close case 17-cv-1491.
SO ORDERED.
Dated: August 2, 2019
New York, New York
/s/ Richard J. Sullivan
RICHARD J. SULLIVAN
UNITED STATES CIRCUIT JUDGE
Sitting by Designation

25a
AppendixOF
D REHEARING AS
Appendix D — DENIAL
TO CERTIFICATE OF APPEALABILITY, OF THE
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED MARCH 10, 2020
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No: 19-2505
Alberto William Vilar,
Gary Alan Tanaka,
Plaintiffs-Appellants,
v.
United States of America,
Defendant-Appellee.
ORDER
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City of
New York, on the 10th day of March, two thousand twenty.
Appellants Alberto William Vilar and Gary Alan
Tanaka, filed a motion for panel reconsideration, or, in
the alternative, for reconsideration en banc. The panel
that determined the appeal has considered the request
for reconsideration, and the active members of the Court
have considered the request for reconsideration en banc.*
*. Judge Richard J. Sullivan did not participate in the
consideration of the request for en banc reconsideration.

26a
Appendix D
IT IS HEREBY ORDERED that the motion is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/

27a
Appendix
E
Appendix
e — MOTION
FOR
RECONSIDERATION OF DENIAL OF
CERTIFICATE OF APPEALABILITY, IN
THE UNITED STATES COURT OF APPEALS
SUBMITTED TO THE SECOND CIRCUIT,
DATED DECEMBER 23, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
19-2505
Alberto William Vilar,
Gary Alan Tanaka,
Plaintiffs-Appellants,
v.
United States of America,
Defendant-Appellee.
Motion for Reconsideration
of Denial of COA
Vivian Shevitz, counsel for Alberto Vilar and Gary
Tanaka, hereby seeks reconsideration of the Order
(December 10, 2019, attached) denying a motion for a COA,
and/or consideration by the en banc Court.
I respectfully ask the panel to take a second look at
this case. In denying a COA, Judge Sullivan, sitting as
district judge, used the wrong standard on which to judge
ineffective assistance of counsel claims.

28a
Appendix E
He wrote (Opn.1) that he took the “facts” from the
“trial transcript …, exhibits introduced at trial, and the
Second Circuit’s prior decisions in this case, with all
inferences drawn in favor of the government.” That is not
correct and therefore cannot support affirmance of his
conclusion that appellants failed to show Constitutional
issues under the Miller-El v. Cockrell, 537 U.S. 322, 327
(2003) standard.1
Massaro v. United States, 538 U.S. 500 (2003) (and
other cases cited in the motion for a COA) make clear that
the Constitutional inquiry in Strickland requires use of
an expanded record to determine issues of ineffective
assistance. A trial record shaped by counsel whose
effectiveness is questioned is insufficient to decide either
prong of Strickland analysis.
As discussed in the Motion for a COA and in the
2255 petition, this Court’s 2013 affirmance/vacatur order
(United States v. Vilar, 729 F.3d 62) already constituted
“encouragement to proceed further” on serious claims
of ineffective assistance, then partially exposed. There,
by Judge Cabranes’ opinion, this Court affirmed the
convictions, but (a) vacated all sentences, including
forfeiture, and (b) ruled specifically that the Court was
1. The Miller-El standard is satisfied where “jurists of
reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed
further.” Buck v. Davis, 137 S. Ct. 759, 765 (2017). This Court
“should not decline the application for a [COA] merely because
it believes the applicant will not demonstrate an entitlement to
relief.” Miller-El v. Cockrell, 537 U.S. 322, 336-37 (2003).

29a
Appendix E
not reaching the claims of ineffectiveness of counsel and
suggested the need for a 2255. United States v. Vilar, 729
F.3d 62 (2d Cir. 2013).
Since then, Petitioners have attempted to get the 2255
heard. At the same time, however, they have been forced
to litigate – on the same trial record and without funds
to pay counsel -- the parallel SEC civil case, in which
Judge Sullivan has continued to impose (purportedly) civil
penalties based on the same, false trial record.
Judge Chin may recall the unique claim in that SEC
civil case. Present counsel had attempted to persuade the
Court at that time that collateral estoppel should not be
applied because of the deficient and skewed record that
ineffective counsel created in the criminal case. Alas, I
failed to persuade the Court, which affirmed purportedly
civil penalties on the trial record. SEC v. Amerindo, Vilar,
Tanaka, 14-2425, DOC 161-2 (2d Cir. 2016) (Jacobs, Chin,
Droney, CJJ).
But now, there is a properly expanded 2255 record.
Despite this, and at the urging of the SEC and US
Attorney, who want to take the rest of defendants’ assets,
Judge Sullivan continues to sanction penalties and ignore
that expanded record. That record belies the false notion
-- allowed to stand by ineffective trial lawyers -- that
defendants had caused total losses of investor accounts
and were “egregious” offenders.
In fact, in the 2255, in which Judge Sullivan required
the government to respond, there was no affidavit from

30a
Appendix E
trial counsel, nor any defense of his conduct by government
lawyers. There could be no defense – and there was none –
because trial counsel had asked the Court and prosecutor,
just before the jury was charged and after the trial record
closed, how forfeiture was supposed to be conducted.
Counsel stated he had done no research but would do
research now, just as the jury was to consider the issues.
Because trial counsel had not undertaken a proper
investigation of the assets or client claims, counsel had
argued to the jury (and court) at trial only that defendants
had no criminal intent because in the past their investors
had made huge profits.
Counsel did not argue or show the jury – because
counsel did not know – that investors had made profits
which defendants showed on their books and records, and
that all the money was in fact “there”.
The government has and continues to resist this
conclusion because it did not square with the trial position.
Respectfully, Judge Sullivan, who has presided over these
cases since 2007, i.e., since he first became a district judge,
resists the conclusion today, and continues to act as if there
were a total loss of investments. This has been disproven
on a record that differs from the trial record.
Every investor has been paid over 100% of their
account claims using assets frozen in place since 2005.
It is defendants’ position that the fact that the jury did
not know this -- because trial counsel failed to investigate

31a
Appendix E
and did not learn about their clients’ assets and claims or
understand forfeiture -- constitutes at least a debatable
claim, suitable for 2255 development, that trial counsel
rendered Constitutionally ineffective assistance.
The panel’s denial of a COA to continue this litigation
means that no court has considered the expanded record,
which this Court in 2013 encouraged to be litigated on a
2255 petition. Based on the expanded record, which no
court has yet considered, I respectfully suggest that this
Court should find that the Constitutional claims at least
debatable and issue a COA. Miller-El v. Cockrell.
Counsel notes that this issue – the need to use an
expanded record in a habeas matter based on ineffective
assistance of counsel – is the subject of a petition for
certiorari that has been relisted a number of times and
may be accepted for Supreme Court review. In Andrus
v. Texas, 18-9674, 2 a death penalty defendant raised the
issue whether the standard for assessing ineffective
assistance of counsel claims, announced in Strickland
v. Washington, fails to protect the Sixth Amendment
right to a fair trial and the 14th Amendment right to due
process when, in death-penalty cases involving flagrantly
deficient performance, courts can deny relief following a
truncated “no prejudice” analysis that does not account
for the evidence amassed in a habeas proceeding and
relies on a trial record shaped by trial counsel’s ineffective
representation.
2. This Andrus petition was rescheduled before the
November 1 and November 8 conferences, and has been relisted
after the November 15, November 22 and December 6 conferences.
It is a matter of time until this issue arrives at the Supreme Court.

32a
Appendix E
Although this case is not a death penalty case, it
involves a record shaped by lawyers who did not know or
appreciate the issues. 3
I respectfully urge the Court to reconsider this
matter, or pass it to the en banc Court, which might include
members of the 2013 panel that affirmed the convictions
but left ineffective assistance open, to determine whether
Strickland claims can be properly considered, as Judge
Sullivan did here, based solely on the trial record.
As discussed, this Court did not previously address
whether counsel was ineffective but specifically noted a
2255 would be necessary to resolve the questions. Thus,
the “law of the case” should not have been used, as Judge
Sullivan did here, to bar ineffective assistance claims
never decided on appeal. Mui v. United States, 614 F.3d
50, 53 (2d Cir. 2010) (mandate rule “bars claims raised
and resolved on direct appeal”).
Ineffective assistance of counsel was never resolved.
This is the first opportunity defendants have had to raise
the issue. It requires consideration of the expanded record.
3. Counsel committed other ineffective lapses, including
failing to raise the issue of extraterritoriality of securities
transactions. That caused a “plain error” review under Morrison
on direct appeal. As discussed in the Motion for a COA in this case,
had counsel raised the issue – which should have been raised in
that every transaction in this case involved offshore investment
through Amerindo Panama, managed from the UK, and involved
private securities created in the UK -- the trial would have been
different.

33a
Appendix E
Miller-El states that, to deserve a COA, a petitioner
need not show that some jurists would grant the petition
for habeas corpus. “Indeed, a claim can be debatable
even though every jurist of reason might agree, after
the COA has been granted and the case has received
full consideration, that petitioner will not prevail.” As
the Court stated, “The petitioner must demonstrate
that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.” Miller-El v. Cockrell, 537 U.S. 322, 338 (2003).
Petitioners, respectfully, have “demonstrate[d]
that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.” They have shown that it is improper to limit
consideration of claims of ineffective assistance of counsel
to solely the trial record.
Since Judge Sullivan did just that – i.e., limited the
inquiry -- “reasonable jurists” in this Court cannot rely
on the district court’s assessment of the constitutional
claims. That assessment is wrong.
I urge the Court to reconsider the matter and grant
a COA.
Dated: December 23, 2019
/s/ Vivian Shevitz

34a
Appendix F
Appendix F — MEMORANDUM
SUBMITTED TO
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED AUGUST 29, 2019, IN
SUPPORT OF MOTION FOR CERTIFICATE
OF APPEALABILITY
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
19-2505
ALBERTO VILAR AND GARY TANAKA
Petitioners-Appellants,
v.
UNITED STATES OF AMERICA,
Respondent.
TABLES INTENTIONALLY OMITTED
MEMORANDUM IN SUPPORT OF
CERTIFICATE OF APPEALABILITY, FORMA
PAUPERIS, AND APPOINTMENT OF COUNSEL
Alberto Vilar and Gary Tanaka respectfully submit
this memorandum in support of a certificate of appealability
(COA) from orders of Hon. Richard J. Sullivan (SDNY
by designation), denying their 2255 application (Order,
8/2/2019, (Ex-A) and denying a certificate of appealability
(COA) and forma pauperis relief (8/16/2019, Ex-B).

35a
Appendix F
Standard of Review
Pursuant to 28 U.S.C. §2253(c), a COA is appropriate
where the petitioner “has made a substantial showing
of the denial of a constitutional right.” This standard is
satisfied where “jurists of reason could disagree with
the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.”
Buck v. Davis, 137 S. Ct. 759, 765 (2017). This Court
“should not decline the application for a [COA] merely
because it believes the applicant will not demonstrate an
entitlement to relief.” Miller-El v. Cockrell, 537 U.S. 322,
336-37 (2003).
Statement of Facts1
This case has been going on for 14 years. It is
complicated factually and procedurally, involving
interrelated criminal and civil proceedings, both set in
motion based on two erroneous ideas: that defendants
sold clients a sham investment (SBIC) through a sham
corporation (“Amerindo”), and, like a Ponzi scheme, they
had extracted millions of dollars from defrauded clients
all over the world.
It turns out that Amerindo consisted of legally
separate entities -- one regulated by the United States
(exonerated of wrongdoing by the SEC Monitor), and
1. Petitioners provide only an overview of facts most relevant
to the underlying §2255 motion.

36a
Appendix F
others operating extra-territorially -- all destroyed by
these proceedings. The separate Amerindo Panama entity
had different clients who, for their own reasons, invested
extra-territorially often hiding identities through various
foreign corporate entities. It also turns out that, unlike the
initially-charged Ponzi scheme, investments were actually
made on behalf of the investors, enormous amounts of
cash were kept in Amerindo accounts, and every penny of
investors’ money has been accounted for. In January 2017,
the SEC receiver reported that, with assets in Amerindo
JP Morgan accounts (restrained since the cases began 14
years ago), he had distributed $54,404,467.83 –more than
100% of all investor claims (05cv5231, DOC 640, ecf p.4).
The two erroneous ideas are at the heart of this
motion. Vilar and Tanaka show that their trial counsel
were ineffective for failing to expose the flaws driving the
criminal and civil cases. They failed to even investigate
assets and did not know, so the jury did not know, that
investors’ money was accounted for in the frozen accounts.
They have been harmed by enormous penalties, all
premised on counsels’ ineffective concessions that there
were total losses of Amerindo client investments, and
imposed before it was clear (as defendants had maintained
and now the SEC receiver finally ascertained) that
everything remained as invested. They were harmed by
SEC counsel’s failure to have told SDNY prosecutors
about their regulatory files that belie false assertions
made during trial and on appeal.
The claims are substantial and are not answered, as
Judge Sullivan found, by the “law of the case.”

37a
Appendix F
History: Pretrial and Trial:
Petitioners were convicted after a 2008 jury trial of
securities and Investment Advisor Fraud, 2 and were first
sentenced in 2010 to 5 years (Tanaka) and 9 years (Vilar)
(increased in 2014 at an ordered resentencing to 6 and
10 years) as well as to restitution, forfeiture of $54-plusmillion, and originally in 2010 to fines (no fine was imposed
at the 2014 resentencing proceeding). 3
The case started in 2005 when heiress Lily Cates’s
counsel approached SEC regulators in San Francisco as
well as a SDNY prosecutor, complaining she had a private
investment through “Vilar” and his company “Amerindo”
and was having trouble redeeming it. Cates did not tell
the government she was a client of the separate Amerindo
2. Tanaka was acquitted of 6 counts premised on the fraud
of Lily Cates but was convicted of conspiracy count that included
allegations about Cates, Investment Advisor fraud, and fraud
in connection with selling “GFRDA” investments to Amerindo
Panama clients. Vilar was convicted of all counts.
3. In 2014 Judge Sullivan also imposed disgorgement plus $10
million fines each in the parallel SEC case after granting partial
summary judgment based on the collateral estoppel effect of the
criminal judgments, and issuing default judgments as to all of
Petitioners’ corporations (which could not hire lawyers because
all the funds were frozen) and could not defend. (05cv5231). This
Court summarily affirmed based on the trial record. (14-2425,
DOC 161-1, 2/26/16) Proceedings in connection with the SEC’s
receivership continue, with one appeal by Claimants (and a crossappeal by defendants (Petitioners herein) pending in this Court.
This Court stayed that appeal until completion of the SEC’s
receivership (17-2534(L)).

38a
Appendix F
Panama which was operated since before Amerindo
US from the UK, as opposed to the regulated company
Amerindo US (substantiated by account statements
provided to the government). Former AUSA Litt and
former SEC counsel Salzburg conducted a joint 6-week
investigation, but spoke to no one from Amerindo before
issuing arrest warrants for Alberto Vilar and Gary
Tanaka, conducting an all-records search that shut down
their Amerindo US New York offices, and accusing them
and Amerindo US of defrauding client Lily Cates and
stealing her money after selling her an “SBIC” investment
that, the SEC wrote in the June 1, 2005 complaint
(05cv5231, DOC 1), “did not exist”.
At the same hearing, the SEC let it be known that
the custodian bank for the “Amerindo accounts” was not
comfortable releasing funds to Vilar or Tanaka; as later
shown in trial exhibit 3582-16 (see 2255 Petition p.14
(05cr621 (17cv1491) ecf p.19), in July 2005, Bear Stearns
(now JP Morgan) “agreed” with the SEC and AUSA that
it would hold defendants’ funds. (No funds have been
released since that moment to defendants).
After the May 27, 2005 searches, the prosecutor
found out that Cates was not a client of Amerindo US,
then expanded searches and charges to Amerindo UK,
where Amerindo Panama records were maintained. In
broadening the search, prosecutors found that certain
Amerindo Panama investors had purchased unique fixedasset securities called “GFRDA’s”, private securities
issued by the Panama company.

39a
Appendix F
In December 2005, the SEC’s Monitor (installed
at the June 1-2, 2005 hearings as to Amerindo US, the
only named corporate defendant and the only Advisory
company extant), wrote a report exonerating Amerindo
US and defendants’ operation of that Advisory entity,
and was discharged when he told Judge Swain that the
company was clean and all investors had been paid but the
company was being bled dry (DOC 48, 05cv5231). Trial
counsel (Tanaka’s counsel also represented him in the
SEC case) never brought up this loss to their clients of the
improperly-accused business interest, and the $50-million
loss was never mentioned by prosecutors or SEC lawyers,
and was never factored into penalties, criminal or civil.
Even after the Monitor’s report, counsel did not ask for the
release of all of defendants’ and their Panama company’s
restrained funds or sought approval to make payouts to
defendants’ Panama clients. (At sentencing, counsel stated
he had not tried because “the SEC would have never
allowed it.” (Sentence Tr. 2/5/10; 2255 Petition ecf p.28.)).
In 2006, after the Monitor’s report, Vilar and Tanaka
were indicted on 12 counts charging securities and
investment advisor fraud and related mail/wire fraud
counts and an overarching conspiracy count. They were
charged with inducing purchases of securities through
fraud, by (1) lying to Lily Cates with respect to her SBIC
investment by having told her that the SBA had licensed
the venture when it had not; and (2) misrepresenting the
nature or quality of the GFRDA fixed deposit investment
sometimes described in written circulars to imply that
funds would be invested in high-quality short-term
investments, when funds were invested in technology and
biotech stocks.

40a
Appendix F
In 2007 then-presiding Judge Karas ruled that the
all-records search of the Amerindo US office in 2005 was
not supported by probable cause. There was no evidence
that what the government lumped together as “Amerindo”
was “permeated with fraud.” (DOC 185, 4/5/2007, 05cr621,
pp.36-38).
W it h pr o s e c ut or s c ont i nu i ng i nt e r n at ion a l
investigations, the case was transferred to Judge Sullivan.
In 2008 the case went to trial. Vilar was convicted of all 12
counts. Tanaka was acquitted of the Lily Cates fraud but
was convicted of three counts, including the conspiracy.
On February 5, 2010 Judge Sullivan sentenced Vilar
to 108 months’ imprisonment and Tanaka to 60 months,
plus restitution of “nearly $35 million” and “more than
$54 million in forfeiture.” (2255 denial p.3).
Trial counsel had made no submissions about forfeiture
or restitution. Rather, in 2009, counsel consented to a
restraining order as to all defendants’ assets, including
those identified as “substitute assets”. As discussed (and
not disputed by counsel) in the 2255 Petition, counsel had
made no investigation of their clients’ assets or expected
amounts of Amerindo Panama clients’ claims. Without
doing so, Counsel agreed that there was a total loss of
every penny invested by all Amerindo’s clients.
Present counsel was appointed to represent Vilar on
appeal (10-521). As discussed in the Vilar appeal brief,
when thereafter AUSA Litt moved for substitute asset
forfeiture, present counsel objected. Judge Sullivan
ruled he had made “a mistake” by signing a forfeiture

41a
Appendix F
order presented to him by AUSA Litt that was $36.7
million too high. He nonetheless signed the substituteasset-forfeiture-order AUSA Litt provided to him. It was
vacated on the 2013 appeal.
Direct Appeal 10-521
This Court affirmed defendants’ convictions but
vacated all sentences including the forfeiture the
government conceded was defective. (729 F.3d 62).
The Court ruled (for the first time) that, though the
10b-extraterritoriality decision in Morrison v. National
Australia Bank Ltd., 561 U.S. 247 (2010), applies to
criminal cases -- and though trial counsel failed to
raise extraterritoriality defenses, Judge Sullivan
“erred by failing to require proof of domestic securities
transactions,” and every security was a foreign-created
private security issued from Amerindo in London --under a “plain error” analysis it would not order a new
trial because “the evidence in the record” showed three
investors in the United States when they purchased a
security (Cates’ SBIC and two GFRDA investors) from
Amerindo.
This Court rejected other claims of insufficiency and
erroneous charges, all on the trial record, stating (n.2):
“Because Vilar and Tanaka appeal from judgments of
conviction entered after a jury trial, we draw the facts
from the evidence presented at trial, viewed in the light
most favorable to the government.”

42a
Appendix F
The Court’s comments about the SBIC venture were
premised on the government’s argument on appeal, the
same as it had argued to the jury: it wrote, the SBIC
venture sold to Cates must have been a “lie” because the
investment was a “non-existent” venture (10-521, Gov.
Brf.110), “did not exist” (G.Brf. 112), and was “fictitious”
(G.Brf. 114). The prosecutor quoted Vilar’s own counsel
who had “conceded” at sentencing “that the SBIC venture
was a sham” (G.Brf/ 114 (“Lily Cates gave Mr. Vilar $5
million, he said this was going into an SBIC fund which
did not exist …”).
In rejecting remaining appellate claims finding
sufficient evidence on the record, the Court expressly
“except[ed] Vilar’s ineffective assistance of counsel claim”
which “we do not reach” and observing that “Vilar may
pursue this claim, if he chooses, in a subsequent § 2255
petition.”
2255 proceeding
Since then, Vilar and Tanaka have attempted to
pursue their 2255 while forced to continue to defend as
defendants in the (otherwise-uncounseled) SEC case,
under pain of default. Judge Sullivan dismissed two
petitions on procedural bases before this one was filed,
and continued to impose penalties premised on collateralestoppel-based summary judgment, and SEC claims that
Vilar and Tanaka had stolen all the money; by judicial
findings in the SEC case, he imposed millions of dollars
in disgorgement and $10-million fines (each) (DOC 432,
5/6/14, ecf p.9).) All were premised on an untrue “fact” of
“total loss” of investments.

43a
Appendix F
In a 1/30/17 motion for a Fourth Distribution, the SEC
receiver reported he had gathered assets that were always
“there” from Amerindo JP Morgan accounts (including
unpriced private securities) and in foreign investment
vehicles. He had distributed over $54,404,467.83 – more
than 100% of all investor claims (05cv5231, DOC 640, ecf
p.4).
There has always been plenty of money to pay
investors.
In this 3/6/17 2255 Petition, Petitioners argued that
they had suffered ineffective assistance of counsel in failing,
inter alia, to correct false impressions and statements and
failing to raise any issue about extraterritoriality, leading
to “plain error” analysis, and also:
- failing to move to dismiss Count 3, added in a
superseding indictment, on statute of limitations grounds,
which should have been a jury issue (as to whether there
was “lulling” if nothing else);
- failing to cross- examine witnesses to affirmatively
elicit facts that would put the matter in context,
i.e., investors Cates and Mayer (and most of the other
Panama investors) had personal histories with Alberto
Vilar relevant to defending against materiality and
intent, and using unoffered government exhibits and 3500
material that showed it;
- failing to defend against fa lse cl a i m s t h at t he
S BIC i nve st ment w a s a “sham” and that the issuer,

44a
Appendix F
Amerindo Panama, was a “sham.” Evidence in SEC files
that its counsel failed to turn over, prove that the SEC
knew about Amerindo Panama for decades and had
accepted limitations on administrative powers it claimed
under the “conduct and effects” test. Examination of
SEC witnesses using such evidence bore on issues of
extraterritoriality, which (as confirmed by the plainerror appellate rulings) counsel failed to raise, and
would have impugned the government’s case as is proper
under Kyles v. Whitley, 514 U.S. 419 (1995), and United
States v. Mahaffey, 693 F.2d 113 (2d Cir. 2012) (reversing
conviction when SEC w ithholding of information
discovered during SEC parallel case);
- failing to notice or argue that the SEC knew that
the SBIC was a real venture and that it did not require
a license; though counsel represented Tanaka in the SEC
and criminal cases, he failed to notice that, between the
first SEC complaint and its amendment, the SEC silently
removed the allegation that the SBIC did not exist;
- failing to present evidence of the contract
modification defenses or to establish the background of
the Mayer disputes; they were being paid out according
to a payout plan and but for the shutdown of Amerindo
in May 2005, would have received additional payments;
- failing to rebut the notion of “theft” from Lily Cates
by reason of withdrawal from one account inaccurately
characterized by SEC examiner Wraga in 2005, by
using Bear Stearns-witness Nierva’s 3500 material
demonstrating there were linked accounts and Cates’ $5

45a
Appendix F
million was still “working” in the account. Wraga should
have been cross-examined at trial to show there was no
theft;
- failing to investigate facts necessary to defend
penalties, failing to value the Amerindo assets or figure
out client claims, failing to make any submissions on
forfeiture or restitution, instead conceding forfeiture;
The petition shows further that SEC counsel either
did not know or withheld material in its San Francisco files
showing the SEC regulators knew of Amerindo Panama
as a separate entity since regulating Amerindo US as of
1986, and had wanted to but did not impose regulation
under the “conduct and effects” test; it had reviewed the
SBIC private placement memo underlying Lily Cates’
investment and knew by its terms an SBA license was not
a requirement of the venture to operate; it was a long-term
investment, awaiting a propitious market moment to invest
in small-business ventures;
- the government made it impossible to properly
defend by holding frozen assets, even after it was clear
that the premises of the case – a “total loss” of all investor
assets – was false.
***
Government Response: The government offered
no affidavit from defense lawyers, SEC counsel, former
AUSA Litt, or any SEC witness. It argued that Petitioners’
claims were barred by the “mandate” rule because of

46a
Appendix F
this Court’s 2013 decision, or did not warrant 2255 relief
because of, primarily, the strength of the trial evidence.
District Court’s decision (Ex-A)
The Court denied the petition, holding that most
claims, including ineffective assistance of counsel, were
barred by the mandate rule based on this Court’s 2013
decision, and as to any claim not barred procedurally,
including the failure to develop “certain defenses” and to
“cross-examine government witnesses on certain topics”,
“Petitioners do not satisfy the Strickland standard” as to
ineffective assistance of counsel.”
The Court also footnoted (p.4, n.2) that there is no
2255 jurisdiction as to claims concerning “non-custodial
aspects or Petitioners’ sentences.”
A CERTIFICATE OF APPEALABILITY SHOULD
BE GRANTED BECAUSE JURISTS OF REASON
COULD DISAGREE WITH THE DECISION TO
BAR, PURSUANT TO LAW OF THE CASE, THE
INEFFECTIVE ASSISTANCE OF COUNSEL
CLAIMS AND RULINGS THAT WITHHOLDING
AND MISCONDUCT BY THE SEC DID NOT
MATTER
1. In adjudicating this 2225 Petition, Judge Sullivan
wrote (n.1) that he took the “facts” from the “trial
transcript …, exhibits introduced at trial, and the Second
Circuit’s prior decisions in this case, with all inferences
drawn in favor of the government.”

47a
Appendix F
He then held that counsel’s failures “to develop certain
defenses – that the SBIC was not a sham, that Amerindo
Panama was not a sham, that “relevant conduct” showed
contract modification rather than fraud, and that victims
suffered no actual loss – concerned claims rejected by this
Court, and so were barred by the mandate rule.
This Court did not previously address whether counsel
was ineffective but specifically noted a 2255 would be
necessary to resolve the questions. The “law of the case”
position cannot bar the ineffective assistance claims never
decided on any appeal. Mui v. United States, 614 F.3d
50, 53 (2d Cir. 2010) (mandate rule “bars claims raised
and resolved on direct appeal”). Accord, United States v.
Huggins, 666 F.App’x 88, 91 (2d Cir. 2016) (unclear what
evidence might have been presented, so even though
defendant did not show clear error in loss calculation, that
resolution “does not necessarily preclude [defendant’s]
ineffectiveness claim on a 2255”).
The “law-of-the-case” doctrine does not extend to a
habeas petitioner’s ineffective assistance of counsel claim
just because a related issue was previously decided on
appeal. E.g., Suggs v. United States, 513 F.3d 675 (7th
Cir. 2008) (finding ineffective assistance in relation to
sentencing issue though sentence affirmed on appeal).
Accord, Alaniz v. United States, 351 F.3d 365 (8th Cir.
2003); United States v. Reinhart, 357 F.3d 521 (5th Cir.
2004); Thomas v. United States, 572 F.3d 1300 (11th Cir.
2009); United States v. McCoy, 410 F.3d 124 (3d Cir. 2005).
Neither the district court nor government cited to any
case where “law of the case” was found to apply in such

48a
Appendix F
circumstance. Ineffective assistance of counsel was never
resolved.
That there was “sufficient evidence” on the trial and
appellate record does not answer questions of counsel’s
effectiveness (or the SEC’s complicity in hiding and failing
to correct false information about Amerindo Panama and
the investments its clients purchases.) The record has been
expanded in this 2255 proceeding.
In Massaro v. United States, 538 U.S. 500 (2003),
the Court held: “When a claim is brought on direct
appeal, appellate counsel and the court must proceed on
a trial record that is not developed precisely for, and is
therefore often incomplete or inadequate for …litigating
or preserving the claim. … [E]vidence introduced at trial
… will be devoted to guilt or innocence issues, and the
resulting record may not disclose the facts necessary to
decide either prong of the Strickland analysis.…”
Since the Second Circuit’s prior decisions also focused
solely on the trial record, it cannot be the case that,
as Judge Sullivan wrote, “the Second Circuit’s prior
ruling[s] foreclose[] the possibility of § 2255 relief on
these grounds.”
2. Judge Sullivan’s ruling that even if claims were not
procedurally barred, “they would still fail on the merits,”
still fails to consider the expanded record or properly
evaluate prejudice. Judge Sullivan mischaracterized
claims, and imposed a greater burden on Petitioners than
that required by Strickland. Because of word limitations,

49a
Appendix F
we set forth examples.
Judge Sullivan characterized (p.7) Petitioners “first”
argument as a claim that the SBIC investment purchased
by Lily Cates from Amerindo Panama was not a `sham’
“and that consequently, Vilar did not intend to steal
from Lily Cates” (emphasis added). He wrote (p.10) that
Petitioners “cannot establish” ineffective assistance
because of the “extensive evidence presented at trial”,
based on which, he wrote, Petitioners “cannot show
that trial counsel’s overall strategy focusing on intent
to defraud, instead of advancing ineffectual arguments
regarding the legitimacy of the SBIC, was deficient
performance.”
The “same is true”, Judge Sullivan wrote (p.11) with
respect to the claim that counsel did not defend on the
ground that Amerindo Panama was not a sham entity.
Judge Sullivan wrote that “the fact that Amerindo
Panama was a separate entity as a legal matter was never
in dispute” renders this claim a “type of argument that is
insufficient to demonstrate deficient performance.”
It bears mentioning, in first place, that Petitioner
Tanaka was not convicted of fraud on Lily Cates.
More to the point, reliance on defense strategy is
error. Counsel never said that it was his “strategy” to focus
on “intent to defraud” to the exclusion of the expanded
evidence. The issue was raised as to counsels’ failure to
use available material -- and counsel said nothing.

50a
Appendix F
Additionally, the actual argument is not that Judge
Sullivan should himself find that the SBIC and Amerindo
Panama were “legitimate”, but that with the unused
evidence, a jury could find lack of intent and lack of
materiality. A jury is the body who should evaluate it.
The results of the proceeding could well have been
different if the jury knew (inter alia) that (as undisclosed
SEC files show) SEC regulators had discussed the SBIC
Private Placement memo with Amerindo representatives
and knew the investment was not a “sham” and did “exist;”
or that the SEC had first charged that the SBIC “did not
exist” but had silently withdrawn that accusation when it
filed an amended complaint.
That there was “no dispute” that Panama was a
“separate entity” does not answer the question. Not only
did the government call the SBIC a “non-existent sham”
in its appeal brief, quoted above, but as late as the 2014
resentencing prosecutors inflamed Judge Sullivan further
with the argument (DOC 666, 05cr621, p5) that, not only
did the SBIC investment “not exist,” but defendants’
Panama corporation, the issuer of the securities, never
“existed at all”.
That was not true, and the government knew it.
The jury should have known that the SEC knew of and
approved Amerindo Panama (though it had questions and
wanted to regulate it), and its San Francisco regulators
had reviewed the SBIC private venture and knew it
was not a condition that an SBA license be extended: it

51a
Appendix F
was a long-term investment waiting for small-business
investment at the appropriate market moment.
This information, with further information not
presented, i.e., that Cates’ money was accounted for and
remained in the frozen accounts, would justify a different
verdict.
Judge Sullivan’s ruling with respect to counsel’s
“fail[ure] to investigate the value of the Amerindo
Panama assets or make submissions about forfeiture or
restitution,” is mystifying, given the importance of loss,
restitution, and forfeiture, as well as intent. Judge Sullivan
excused counsels’ failures because “counsel did ultimately
contest the loss amount calculated” (Opn. p.12-13, citing
one pre-sentencing letter).
He called it a “reasonable, strategic choice” to have
failed to advance arguments at sentencing. Again,
the conclusion of “strategy” is unsustainable and the
argument is mischaracterized. Labeling the claim as one
directed only to sentencing is wrong and misleading.
The jury should have known that all Amerindo Panama
clients’ money was not lost or stolen, and was always in
the investment accounts restrained in 2005 on false
premises, a defense at least under Kyles v. Whitley, 514
U.S. 419 (1995) (withheld evidence would have impugned
the government’s case), as it should have known – from
the SEC Monitor’s 2005 exoneration of Amerindo US –
that the SEC and AUSA had falsely accused defendants
of stealing money from investors and from Amerindo.

52a
Appendix F
As to the failure to prepare for financial penalties
(and “loss” factors), any suggestion of “strategy” would
be impossible. After the evidence was closed, trial counsel
asked what was supposed to happen in connection with
forfeiture. (T.5634: MR. COLTON: Just a question. I
frankly don’t know the answer but I could research it.
Does the jury typically get the forfeiture allegations in
an indictment? Should we be sending that back?”) At the
2/5/2010 sentencing (p.113), counsel stated he had not even
tried to accomplish a payout to defendants’ clients because
“the SEC would have never allowed it.”
Indisputably counsel made no “reasonable strategic
choice”. Failure to investigate their clients’ assets in the
face of the threat of serious penalties is clear ineffective
assistance. Wiggins v. Smith, 539 U.S. 510 (2003)
(ineffective assistance where counsel failed to present
mitigating evidence that counsel knew existed and that
there was no risk to presenting); Williams v. Taylor, 529
U.S. 362 (2000) (ineffective assistance where counsel failed
to investigate and to present mitigating evidence).
Finally, the “Morrison” issue should be examined in
light of the 2255 record. In 2013, this Court ruled that, “[a]
lthough … Morrison does apply to criminal cases brought
pursuant to Section 10(b) and Rule 10b–5, … the record in
this case confirms that Vilar and Tanaka did perpetrate
fraud in connection with domestic securities transactions,”
and it “therefore affirm[ed] their convictions.”
Expanded-record evidence and cases explaining
Morrison suggest that, had counsel raised the issue, the

53a
Appendix F
result could be different.
In a Petition for Rehearing (10-521 DOC 556) and
thereafter, counsel argued that, as parties and court
had not realized that the “domesticity” of a transaction
was elemental, witnesses were not (cross-) examined
on territorial aspects of purchases. While the 10-521
Court concluded (based on casual evidence) that the
Mayer Family was in Puerto Rico, for instance, and
therefore purchase(s) were not extraterritorial, unoffered government exhibits supporting this 2255 motion
establish that Mayer purchased foreign-created Amerindo
Panama securities in the name of, and through, everchanging offshore corporate entities. See EX.”D” to this
2255 petition (Mayer State Court Complaint, litigated by
default judgment while defendants were without funds and
counsel), alleging their Bahama corporations “Daba” and
“Aba” as owners of securities; and see 10-521, DOC 275
ecf p.72 (Supplemental Appendix), which is a note from
Mayers to Vilar: “For our protection please change the
name of KEBA (equities) to ABA. The name of ZELA
(fixed-income) to DABA and send us directly a statement
of account (up to date …)”.
While this Court previously affirmed findings that
the Mayers’ and others’ transactions should be considered
“domestic” “based on the record in this case”, in a postVilar ruling, City of Pontiac Policemen’s & Firemen’s Ret.
Sys. v. UBS AG, 752 F.3d 173, 181 (2d Cir. 2014), this Court
sustained Judge Sullivan’s seemingly 180-degree ruling
dismissing a complaint because “the mere placement
of a buy order in the United States for the purchase of

54a
Appendix F
foreign securities on a foreign exchange” is insufficient
for the plaintiffs to have incurred irrevocable liability in
the United States” 752 F.3d at 181.
City of Pontiac hinged on the fact that, although the
order was placed in the United States, it was “executed
on a foreign exchange” and that the Supreme Court in
Morrison had explained that the Exchange Act was not
intended to regulate foreign exchanges. Id.
The same thing occurred in this case. Every single
purchase involved a private security created after the
agreement to purchase it, in London, in the individual
investor’s name, executed in the Amerindo Panama’s back
office located in the UK.
Undeveloped evidence demonstrates valid defenses,
that should be decided by a jury on a full record. A COA
should be granted.
3. Judge Sullivan ruled in a footnote (p.4 n.2) that
any challenge to financial penalties “is not cognizable
on a motion for habeas relief”, citing United States v.
Rutigliano, 887 F.3d 98, 105 (2d Cir. 2018). Rutigliano did
not deal with ineffective assistance. This Court explicitly
accepted limitations to the Rutigliano “rule” where
the claim is that penalties are “tainted by ineffective
assistance [or Government] misconduct”. E.g., Gonzalez
v. United States, 792 F.3d 232, 238 (2d Cir. 2015);
Weinberger v. United States, 268 F.3d 346, 351 (6th Cir.
2001) (allowing §2255 claim challenging restitution if there
is a meritorious claim of ineffective assistance of counsel).

55a
Appendix F
Counsel’s concessions at the 2010 sentencing that all
frozen assets could and should be forfeited, never having
investigated those assets and without having a plan to
pay out Amerindo clients or ascertain – as their clients
told them – that the money was not missing, cannot be
excused because they were unaware. Counsel’s agreement
to restitution, without any analysis of actual loss, allowed
rulings that were illegal. E.g., United States v. Coriaty,
300 F.3d 244, 252 (2d Cir 2002) (“Unlike loss …a court’s
power to order restitution is limited to actual loss”);
United States v. Boccagna, 450 F.3d 107, 117 (2d Cir. 2006)
(restitution limited to actual “amount of the victim’s loss.”).
That facts were not put before the jury and the
sentencing court is a Constitutional violation. See United
States v. Tucker, 404 U.S. 443 (1972) (due process occurs
when a sentence is based on misinformation).
Forma pauperis status should be granted and
counsel should be appointed.
Forma pauperis status was granted by this Court
in a number of prior appeals and proceedings relating to
the same subjects. 10-521, 14-1452, 14-1453, 18-26, 18-46.
It should be granted here as well.
Respectfully, present counsel, Vivian Shevitz, should
be appointed to represent Petitioners-Appellants. Ms.
Shevitz was appointed for Vilar on his first appeal (10521) and found that the forfeiture was defective. She has
represented Vilar and Tanaka without current payment of

56a
Appendix F
fees since 2012 in district court SEC litigation and in civil
appeals and in connection 2255 proceedings. She believed
it was the right thing to do as a defense lawyer because
there was no other counsel and her clients lack funds, and
if she abandoned them after the criminal cases, they would
default and lose their assets nonetheless.
This case raises serious issues excepted from the
2013 Vilar affirmance. Petitioners respectfully ask that
Ms. Shevitz be appointed pursuant to the CJA to litigate
this 2255 petition.
Conclusion
Forma pauperis status should be granted, and a COA
issued.
Present counsel should be appointed to represent
Appellants.
Dated: August 29, 2019
/s/Vivian Shevitz

57a
Appendix
G
Appendix G — REPLY
PETITION
FOR 2255
RELIEF, AND MEMORANDUM, SUBMITTED TO
THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK,
DATED MAY 30, 2017
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 1491 (RJS)
05 cr 621 (RJS)
ALBERTO VILAR and GARY TANAKA,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
REPLY, ON PETITION AND MEMORANDUM
FOR VACATUR OF THE CONVICTIONS
PURSUANT TO 28 U.S.C. §2255
TABLES INTENTIONALLY OMITTED
				Vivian Shevitz
				
Attorney for Alberto Vilar
				
and for Gary Tanaka
				
46 Truesdale Lake Drive
				
South Salem, New York 10590
				914 763 2122
				vivian@shevitzlaw.com
REPLY ON MOTION FOR RELIEF
PURSUANT TO 28 U.S.C. § 2255

58a
Appendix G
By order dated March 1, 2017 (DOC 757, 05cr621) this
Court directed the Criminal Division of the U.S. Attorney’s
Office to appear and “answer, move, or otherwise respond”
to Petitioner’s application for a writ of habeas corpus
pursuant to 28 U.S.C. 2255”, no later than May 1, 2017.
The prosecutors “responded” but they do not address
the Brady/Giglio/Mahaffy claims – that the SEC withheld
evidence and the government proceeded on false evidence.
They do not address ineffective assistance of counsel
and fail to address the facts that have come to light, from
government exhibits and the SEC’s files that trial counsel
did not use and/or did not develop but which now are part of
this 2255 record. (Rules Governing 2255 Proceedings Rules 1,
4). They do not even touch the fact that all Panama investors
“have been repaid their principal claims” and there is a $27
million surplus (DOCS 640, 655, SEC v. Amerindo, 05cv5231).
They have no answer to the question: how it could
possibly be deemed a reasonable strategy to consent to
restrain and forfeit all their clients’ assets, conceding
“losses”, without evaluating “actual losses”. Petitioners
challenge these concessions as having been made
without their knowledge and consent. The government’s
counsel has failed to submit an affidavit countering this
assertion. In fact, the government is deafeningly silent
on Petitioners’ showing of trial counsel’s ineffective and
unreasonable handling of all the critical facts (some salient
examples of which are discussed in the footnote below).1
1. The prosecutors ignore the fact (and its significance) that
that defendants’ Panama company had assets $27 million more than
their clients’ account claims. Only in “ignorance” can prosecutors

59a
Appendix G
press the narrative that Mr. Vilar and Mr. Tanaka took actions
“designed to delay investors’ rights to redeem” in order “to avoid
detection” of the “now-failing scheme” (Gov.Op.14). The firm was not
failing. The $27 million surplus belies that claim. It thereby rebuts
the government’s claim that because Amerindo was failing defendants
had misappropriated money, and had an intent to defraud as opposed
to make money for their investors, the “close family and friends” (Gov.
Op.3) who remained with Amerindo. Contrary to the government’s
accusation, Amerindo did not need Cates’ money to survive.
The fact that there was surplus in client accounts (SEC case,
DOCS 640, 653), rebuts the false accusation based on SEC Investigator
Wraga’s work that the withdrawal of funds from Bear Stearns’ subaccount constituted theft because the balance in that sub-account was
reduced below her investment value. As the presence of the surplus
shows, there were ample funds within the firm. Using readily available
funds for business purposes made sense because cash was fungible.
Cates’ business account statement showed specifically the value
of her “SBIC investment,” which accrued interest, meant that the
money was “escrowed” (as “escrow” is understood and explained to
prosecutors by Cates’ attorney Ed Swanson, 3505-15). Vilar raised
this fact in connection with the ineffectiveness claim that the Court of
Appeals declined to consider. That the prosecutors repeat the “escrow”
allegation in their response to the Petition means they have not yet read
their own witness’s statements. (Vilar Supplemental Appendix, 10-521,
VSA-II, p. 278) (“Escrow acct – defined by E.S. … +/- money should not
be used for any other purpose until specified event or conditions met.”)
Cates’ lawyer Swanson also told the government that when he
contacted the SEC and US Attorney on behalf of Cates’ claim against
“Amerindo”, he had assumed that “Panama was a subsidiary.” He had
thought, he said, that Cates was a client of the U.S. entity because
Cates had dealt with Vilar in New York. (It “didn’t matter what he
called himself – he was Amerindo.”) VSA-II, p.280. Swanson may
have “assumed”; the prosecutor should have questioned.
As discussed in the Vilar Reply brief, AUSA Litt and SEC Counsel
Salzberg interviewed the CFO of what they called “Amerindo” – the US

60a
Appendix G
Instead of at least acknowledging the factual claims
asserted in the 2255 petition, the prosecutors claim that
procedural bars preclude litigation of the merits; they
write that this Court’s individual rule limiting the length
of civil motion memoranda allows them to choose not to
discuss such claims (Gov.Op.p1 &n.1, 9, citing Individual
Rule 2(B).) They posit that the length of the 2255 motion
(longer than the civil motion limit) and incorporation
of previous filings are grounds for them to claim the
“remedy” of choosing to answer using only the facts on
the trial record and ignoring the gist.
As to the 2255 claims within the petition’s “four
corners” of the Petition (id., p.1 n.1), whatever that may
mean, the government argues that the “mandate rule”
precludes consideration because “most” are “rehash[ed]”
entity they had just destroyed – until a week after they had destroyed it.
(GX 3523-1, June 5, 2005 interview). Mr. Mainzer told the government
that Lily Cates and the Mayers were not clients of the US operation.
At the Vilar bail hearing before Judge Baer on June 3, 2005
(DOC 704, 05cr621), Judge Baer criticized the U.S. Attorney: “I
must say, reading some of the press, which I had no idea about when
I was here last week about this, certainly gives one a view that people
have concluded that the presumption of innocence is not exactly alive
and well.” When AUSA Litt urged the Court to deny a bail package
because of what the prosecutor did not know, Judge Baer stated he
was interested “only … in what you do know.” (Id. at 4, 10). AUSA Litt
had not looked at the Amerindo Panama books and records; he had not
looked at the SEC records. (Id. 18-19). AUSA Litt indicated he only
learned there was a Panama company (and that Cates was not a client
of the US company) after he had arrested the defendants and laid the
groundwork for destroying the US company. Mr. Vilar’s bail counsel
told Judge Baer that the SEC had known about it a long time. Id.

61a
Appendix G
“frivolous arguments” that this Court and the Court of
Appeals rejected (Gov.Op. passim). The Court of Appeals
made its rulings based on the record of guilt or innocence,
not facts concerning ineffectiveness and Mahaffy violations.
The government’s position that there is a “procedural
bar” is factually and legally baseless. It is a sham response
designed to avoid answering hard facts shown in the
petition, which the US Attorney and the SEC got wrong.
THERE IS NO PROCEDURAL BAR
The government complains of attachments of excerpts
of “various briefs filed during this lengthy litigation” (Gov.
Op.1 n.1). It authorizes itself to ignore claims in those
attached documents under the Court’s Individual Rule
2B and cites rulings of courts (not prosecutors) declining
to reach arguments raised in papers containing material
incorporated to evade page limitations.
The Individual Rules governing civil motion practice
do not govern practice under 28 U.S.C. §2255, which is
a step in the criminal case deemed a civil case for some
purposes, but is not a separate civil case. (See 2255 Rules).
The government was ordered to move against or answer
the whole of the motion pursuant to the Rules governing
2255 practice, not just arguments it deems “appropriate”. 2
2. RULE 5. THE ANSWER AND THE REPLY
(a) When Required. The respondent is not required to
answer the motion unless a judge so orders.
(b) Contents. The answer must address the allegations
in the motion [Emphasis added]. In addition, it must

62a
Appendix G
It did not move against the petition, but decided to not
address arguments made in papers filed in this criminal
case that are appended to the petition (for convenience.)
The appended papers discuss facts and arguments and
are part of the record anyway. In a 2255 proceeding, all
of the papers in the criminal case are automatically part
of the 2255 record. (See Rule 1). This Court’s individual
civil motion rule provides the government no cover.
The mandate rule prevents relitigation of matters
decided or necessarily decided previously in the case.
None of the 2255 claims is barred by that rule.
There was never a prior finding on ineffective
assistance or Brady/Mahaffey claims. The claims in the
2255 petition are ripe for the first time here.
The government distorts and conflates. As set forth
in the footnote below, it repeatedly claims that sufficiency
findings by the Court of Appeals on the direct appeal
state whether the moving party has used any other
federal remedies, including any prior postconviction
motions under these rules or any previous rules, and
whether the moving party received an evidentiary
hearing.
(c) Records of Prior Proceedings. If the answer refers
to briefs or transcripts of the prior proceedings that are
not available in the court’s records, the judge must order
the government to furnish them within a reasonable
time that will not unduly delay the proceedings.
(d) Reply. The moving party may submit a reply to the
respondent’s answer or other pleading within a time
fixed by the judge.

63a
Appendix G
constitute prior rulings that trigger the mandate rule’s
prohibitions. 3 “Sufficiency” findings are irrelevant to this
2255 petition. 3
3. At page 17, the government argues that trial counsel’s failure
to rebut the accusation that the SBIC was a non-existent “sham” –
by evidence in the SEC’s and Amerindo U.S.’s files, including the
SEC’s stealth withdrawal of the charge in its un-addressed amended
complaint -- is barred because defendants attempted to argue on
appeal (from facts not developed at the time) that the true nature of the
venture was not as portrayed. On this 2255 motion, which incorporates
all the records in this case, the now-partially-developed evidence shows
a different picture: there were ongoing efforts to gain a license for the
SBIC after Cates invested. The Private Placement memo showed that
the venture was a 10-year venture in the capital-gather stage. Further
– and as the SEC’s records would show – Amerindo reported to the
SEC about the SBIC in 2003, after Cates’ investment, and the SEC
knew that an SBA license was not required for the private placement
investment to proceed. Further, Cates’ lawyer Swanson argued for a
return of Cates’ capital not on the ground of “fraud”, but rather based
on rescission, for the “failure” of Amerindo to give Cates a private
placement memo before she made the investment. (She was dyslexic
and claimed she did not want to read anything).
At page 18, the government argues that the Court of Appeals’
finding of sufficient evidence to support the intent element constitutes
a “clear ruling” that bars “relitigat[ion of] the questions” raised in
the 2255 petition.
At page 19, the government argues that the claim that defense
lawyers failed to challenge the accusation that Amerindo Panama
was a “sham” by showing that the SEC had (silently) removed the
allegation in the SEC’s complaint that the investment “did not exist”
– is a “rehashed challenge to the sufficiency of the evidence that the
Second Circuit rejected on direct appeal.
At page 20, the government asserts that the showing of contract
defenses that the trial lawyers did not develop at trial, is barred
as a ground for relief because appellate counsel argued that what

64a
Appendix G
On a claim involving ineffective assistance of counsel in
connection with the prior proceedings, there is necessarily
a different record. See 28 U.S.C. § 2255 Rules; Massaro
v. United States, 538 U.S. 500 (2003).4
For this reason, the fact that the Court of Appeals
rejected a claim of “no loss” on the trial record (Gov.
occurred here was efficient breach of contract instead of a fraud.
Because trial counsel had stated in his closing argument that this
should have been treated as a contract claim, not a criminal case,
the government argues that “this is a rehashed challenge to the
sufficiency of the evidence”. However, this 2255 Petition raises facts
that were undeveloped which support a “modification of contract”
defense. The jury did not know what counsel was talking about in
arguing that the case should have been “brought across the street”
-- without having learned about “efficient breach of contract” and
other contract terms.

4. Massaro wrote:
When a claim is brought on direct appeal, appellate
counsel and the court must proceed on a trial record
that is not developed precisely for, and is therefore
often incomplete or inadequate for, the purpose
of litigating or preserving the claim. A defendant
claiming ineffective counsel must show that counsel’s
actions were not supported by a reasonable strategy
and that the error was prejudicial. Strickland v.
Washington, 466 U. S. 668. The evidence introduced
at trial, however, will be devoted to guilt or innocence
issues, and the resulting record may not disclose
the facts necessary to decide either prong of the
Strickland analysis. … The court may take testimony
from witnesses for the defendant and the prosecution
and from the counsel alleged to have rendered the
deficient performance. …

65a
Appendix G
Op.20) does not answer the question whether counsel
used reasonable strategy in litigating “loss.” The question
now is not one of guilt or innocence, but whether there
was a reasonable and reasonably-based strategy. See
Kimmelman v. Morrison, 477 U.S. 365 (1986) (Sixth
Amendment claim is different than Fourth Amendment
claim. Counsel’s failure to file a meritorious Fourth
Amendment claim constitutes separate ground for relief
than the relief that would be granted on the basis of a
Fourth Amendment suppression ruling. If the defendant
can show prejudice from the admission of documents that
counsel failed to have suppressed, he is entitled to habeas
relief).
There is no doubt that the previous appellate rulings,
like the previous rulings in this case and the SEC case,
were made on the basis of the trial record alone. The
government told the Court of Appeals it must not look
beyond the trial record throughout the appellate litigation
(and during the litigation of the SEC case).
The troubling facts then coming to light led counsel
to obtain an Order supplementing the appellate record
in the then-pending criminal appeal, 10-521, so that
an ineffectiveness of counsel claim could be evaluated
on supplemented facts “outside” of the record. When
counsel pointed to documents supplementing the record
to consider on the Morrison claims, the government
specifically objected.
There, appellate lawyers took the position that it had
stipulated to expanding the appellate record only as to
the claim of ineffective assistance. In its Sur-reply brief

66a
Appendix G
(10-521, DOC 287, filed 5/14/2012, United States v. Vilar,
729 F.3d 62 (2d Cir. 2013)), the government pointed to the
supplemented record but argued in a footnote that the
Court of Appeals should ignore it, writing (n.*):
In connection with the instant appeal, the
Government stipulated to supplementing the
record with all of the Government’s pre-marked
trial exhibits (even those not ultimately admitted
at trial) and its 3500 material, so that Vilar could
present to this Court an ineffective assistance
of counsel claim. (SA 915). It is surprising, and
disturbing, that Vilar has gone well beyond
that stipulation (and, indeed, has chosen to rely
on material beyond the parties’ stipulation) in
support of numerous other arguments that he
presents on appeal. For example, Vilar cites to
unadmitted evidence that is unrelated to any
ineffective assistance claim in support of his
Morrison claim (Vilar Reply Br. 12), and he
cites to snippets of clearly inadmissible hearsay,
including Vilar’s own out-of-court statements,
in support of his newly-minted restitution
argument (Vilar Reply Br. 97). Furthermore,
Vilar cites to portions of witnesses’ 3500
material (Vilar Reply Br. 26, 31, 33 n.10), and to
an MLAT response related to a non-testifying
witness (Vilar Reply Br. 61 n.15), both of which
are also inadmissible hearsay. In so doing,
Vilar is not merely seeking an end-run around
settled precedent requiring this Court to “view
the evidence in the light most favorable to the
government, crediting every inference that could
have been drawn in the government’s favor, and

67a
Appendix G
deferring to the jury’s assessment of witness
credibility and its assessment of the weight
of the evidence.” United States v. Chavez, 549
F.3d 119, 124 (2d Cir. 2008) (citations, brackets,
and internal quotation marks omitted). Rather,
Vilar is attempting to counter the evidence that
was admitted at trial with material that was
not admitted at trial — much of which would
have been inadmissible because it either fails to
satisfy the Federal Rules of Evidence or pertains
to proceedings that post-dated the trial. [DOC
287, p.3-4 (ECF p.7-8) n.*]
What the government asked is exactly what the Court
of Appeals did. It reviewed the appellate claims viewing the
trial evidence in the light most favorable to the prosecution.
In accordance with the Court’s decision to decline
consideration of the claim of ineffectiveness of counsel,
the Court of Appeals found only that “the record in this
case” confirmed that Vilar and Tanaka did perpetrate
fraud in connection with domestic securities transactions”,
and it “therefore affirm[ed their convictions.” (DOC 527,
10-521, ECF p.9) See also id. ECF p.19 (In light of these
domestic transactions, … based on the record evidence,
a jury would have found that Vilar and Tanaka engaged
in fraud in connection with a domestic purchase or sale
of securities ….” ).
At the same time, no doubt in light of the nature and
volume of “dehors the record”-favorable material, the
Court of Appeals expressly determined that defendants
should proceed by habeas review so that they could

68a
Appendix G
develop a record. The Court of Appeals did not determine
any claim of ineffective assistance.
This distinguishes this case from the cases on
which the government relies to argue procedural bar.
In United States v. Pitcher, 559 F.3d 120, 123 (2d Cir.
2009), the Second Circuit upheld dismissal of a habeas
on the ground that the prior affirmance had resolved
another ineffectiveness claim, which turned on the same
factual issue -- that the trial lawyer had advised the
defendant based on lies his client had told him about the
facts of the case. Though posed in a different way on a
2255, the Court held the prior ineffectiveness affirmance
as “premised on the same facts and rested on the same
legal ground” as the argument made in the Petition. In
Yick Man Mui v. United States, 614 F.3d 50, 53 (2d Cir.
2010), the Court described the “mandate rule” as barring
litigation of ineffective assistance claims in a Section 2255
proceeding “after raising such claims on direct appeal…,
i.e., strategies, actions, or inactions of counsel that gave
rise to an ineffective assistance claim adjudicated on the
merits on direct appeal may not be the basis for another
ineffective assistance claim in a Section 2255 proceeding.”
Since the Court of Appeals did not reach Vilar’s claim
of ineffective assistance of counsel (stating, “With the
exception of Vilar’s ineffective assistance of counsel claim,
which we do not reach, Vilar and Tanaka’s remaining
claims are without merit”) (DOC 527, 10-521, ECF p.54))
and did not consider the evidence supporting it, there was
no previous adjudication on the merits.
There is no procedural bar. The government’s argument
is unprincipled, and legally and factually baseless.

69a
Appendix G
DEFENDANTS WERE DEPRIVED
OF A FAIR TRIAL
Tellingly, the government does not deny that (1) the
prosecution and the SEC used false evidence; (2) the SEC
withheld favorable evidence; and (3) trial counsel did
not know the law or the facts about forfeiture, making
a conclusion of “reasonable strategy” impossible. See
Tr. 5634 (quoted in footnote 5 below); 5 see also Vilar
sentencing transcript, 2/5/10, quoted below (Mr. Colton
distancing himself from the expert report instead of
embracing the fact that there was more money there than
the government was claiming). 6
5. Just after the jury was charged, Mr. Colton asked a question
(Tr. 5634): “MR. COLTON: Just a question. I frankly don’t know the
answer but I could research it. Does the jury typically get the forfeiture
allegations in an indictment? Should we be sending that back?” This is
discussed further in the prior 2255 attempt, DOC 671 ECF p.83-84.
6. See Sentencing Tr. 9-10, 2/5/10 (Vilar sentence):
THE COURT: … But at this point, I mean the
government I thought was pretty clear, they don’t
know how many other people there might be who lay
claim to this money.
Right, Mr. Litt?
MR. LITT: Not for certain, no.
THE COURT: Right. And I really should be directing
this to Mr. Colton, because it’s your expert who opined
I think on this subject.
MR. COLTON: I need to clear up the record, your
Honor. That was sent by Mr. Ross, who has been
engaged by Mr. Tanaka. [Mr. Tanaka was not present

70a
Appendix G
to explain that Mr. Colton had no interest in presenting
this highly-favorable evidence]. It was not sent by
me, and it wasn’t a legal expert in that sense. So, we
weren’t trying to backdoor an expert or anything like
that. It’s somebody who wrote to the court, just so the
record is clear, because I would not have put forth an
expert report or any type of evidence in that fashion.
THE COURT: Mr. Ross.
MR. COLTON: I just wanted to make the record clear
so that it didn’t seem like it was something untoward
being done by counsel.
If the court is saying that the difference between
42 and 48 [million] is not going to be determinative
-- likely determinative -- then I think that’s right, we
should go forward in the normal course. I don’t know,
your Honor, but there isn’t a ready market for private
securities, and I expect each one would be a negotiated
attempt to sell them and to find a buyer, to approach
each of the companies, I suppose, to see if they want
to buy back their shares and to negotiate. I can’t see
that happening in a week, or two, or a month, just
given the shear volume of securities, but I don’t have
any personal knowledge, no.
THE COURT: Right. But I mean let’s all remember
that the verdict came back in November of 2008, right?
MR. LITT: Yes, it did.
THE COURT: So, I mean if this is what the parties
wanted, we probably would have had time to do this
before sentencing, as it has turned out.
Let me hear from Mr. Colton.
MR. COLTON: Well, your Honor, without Mr. Tanaka,
I will give you my thoughts and predictions. …

71a
Appendix G
Limitations on “losses” are a defense lawyer’s
business. A “fraud” where no one lost money is a defense
lawyer’s dream. Defense lawyers did not investigate or
use the evidence that would have shown this to the jury.
The failures here were not strategic choices. In the
absence of any sworn statement by prior counsel or even
an argument proposing an alternative explanation, the
Court should find that the defense of this case was not
based on sound strategy.
As to the government’s Brady/Mahaffy misconduct,
while the failure to deny may not necessarily or
automatically give rise to a conclusion that Mr. Litt and
Mr. Salzberg violated Brady as a matter of law, the
absence of denials of claims in the Petition suggests at
least that a hearing is required. United States v. Mahaffy,
693 F.3d 113, 127 (2d Cir. 2012) the Second Circuit ruled
that the Justice Department (and the SEC) had violated
the defendants’ Due Process rights after it withheld
material that the government had in its files that could
be helpful to the defense; Supreme Court’s decision in
Brady requires the government to disclose evidence to
the defendant that is “either exculpatory or impeaching,
if there is a reasonable probability that, had the evidence
been disclosed to the defense, the result of the proceeding
would have been different.” United States v. Rowland, 826
F.3d 100, 111 (2d Cir. 2016).
Amerindo consisted of separate entities, all owned
by Vilar and Tanaka but not a single entity, and the SEC
knew it. Amerindo Panama was a legitimate foreign

72a
Appendix G
investment corporation, and the SEC knew it. The SEC
and US Attorney got it wrong that Amerindo US was
“dirty”. (Monitor report exonerating defendants in their
operation of Amerindo U.S., 05cv 5231, DOC 48).
They got it wrong with Amerindo Panama, too,
and should have known it, but have continued to seek
punishment as if their erroneous accusations were true.
A hearing is required if not outright grant of the Writ.
STATUTE OF LIMITATIONS
The only arguable bar concerns the prior litigation of
the statute of limitations defense. The Court of Appeals
reviewed this claim only on a plain error basis. A statute
of limitations claim, however, differs from a claim that
counsel did not raise, or argue, a statute of limitations
defense. See Kimmelman v. Morrison, 477 U.S. 365
(1986) (fourth amendment claim is different from a sixth
amendment claim based on trial counsel’s failure to raise
a defense that could have been litigated, and if prejudice
arises, a defendant is entitled to vacatur).
The government acknowledges that the last GFRDA
renewal/rollover (“purchase” or “sale” of the security)
occurred in 2001 when the Mayers bought the last GFRDA
investment. The count was added more than five years later.
When defendants raised this issue as “plain error”
in the Court of Appeals, the government argued, as it
does here, that “lulling” an investor into not redeeming

73a
Appendix G
constitutes a “further act of securities fraud. The
prosecution argues that “lulling” acts were “undertaken
with the hope of avoiding detection of the now-failing
scheme”.
The government then cites a Supreme Court case
involving mail fraud, to argue that lulling letters “within
the limitation period” constituted “conduct in furtherance
of the scheme to defraud.” Gov.Op.p.14, citing United
States v. Lane, 474 U.S. 438 (1986). However, securities
fraud requires the purchase and sale of a security. It is an
offense analytically different from mail fraud. It occurs
when the security is purchased or sold and has never been
held to be a “continuing” offense.
Nor does United States v. Kelley, 551 F.3d 171, 176
(2d Cir. 2009), support the government’s analysis. To
the contrary, Kelley held that a statement created after
the purchase or sale does not constitute a statement in
furtherance of the crime of securities fraud. Specifically,
the Court wrote that the appellate claim was that the
statements “disseminated two to four years after the
purchases of the related securities… were not made
in connection with the sale or purchase of a security
as required for a section 10(b) violation” and should be
inadmissible in evidence.
The Court agreed that confirmations and monthly
statements issued after securities are purchased “were
not actionable statements,” Kelley, id., citing Fezzani v.
Bear, Stearns & Co., 384 F. Supp. 2d 618, 639 (S.D.N.Y.
2004) (finding in a civil action that confirmation notices

74a
Appendix G
and monthly account statements issued after the purchase
of securities were not actionable statements under section
10(b) or Rule 10b-5 when they occurred after the fact and
plaintiff did not rely on the statements in making the
purchase), and Connors v. Lexington Ins. Co., 666 F. Supp.
434, 443 (E.D.N.Y. 1987) (“Statements made subsequently,
even if fraudulent, do not make out a 10b-5 violation.”).
The bogus statements at issue in the Kelley case “were
admitted as evidence because they tended to demonstrate
Kelley’s intent to defraud his clients …. They were never
offered as proof of independent violations of section 10(b).”
United States v. Kelley, 551 F.3d 171, 175-176 (2nd Cir.
2009).
Courts that have considered the issue have held that
securities fraud is not a continuing offense. See United
States v. Harris, 919 F. Supp. 2d 702, 710 (E.D. Va. 2013)
(“The offense, by its own language, is contained to the
sale of a security, meaning it does not persist past the
actual sale. Each separate offer or sale is understood to
be a distinct chargeable offense under § 77q(a). … [T]he
focus on distinct transactions favors the conclusion that
the statute, as written, does not contemplate a continuing
course of conduct.”
The cases cited by the government as authority
(Gov.Op. p.14) are inapt because they involve some issue
other than the statute of limitations. In any event, had
counsel raised the statute of limitations, even under the
government’s theory it would have been a jury question as
to whether there was “intent” to “lull”, and that “lulling”

75a
Appendix G
was part of the purchase or sale of the security. And, if
the jury knew that there was money invested and none
was missing, that there was $27 million in surplus, and
not a “failing” company, there is a reasonably probability
that it would have found no misconduct “in connection
with” a purchase or sale of securities – and certainly none
within the statute of limitations. Any “lulling” was meant
to achieve maximum profits for the pool of investors, and
those who wanted immediate withdrawals were being
accommodated.
In any event, the basis of the Court of Appeals’
rejection of the mail fraud claim on direct appeal is not
determinative of the claim made here. There is no way to
know the basis of the ruling, given the plain error analysis
and summary affirmance, as to “remaining claims”.
Even were the Court to find the ineffectiveness claim,
based on the failure to raise the statute of limitations
defense, barred because the Court of Appeals denied a
statute of limitations appeal on a plain error standard,
there are plenty of other grounds for a finding that
defendants were deprived of the effective assistance of
counsel. Trial counsel’s failure to move to dismiss, is,
like the evidence in the Kelley case, relevant to counsel’s
overall conduct.
Mr. Tanaka was convicted only of the GFRDA-related
counts, and was acquitted of the “Cates’ counts”. The
statute of limitations defense would have been especially
important since the jury found that Mr. Tanaka was
not guilty of statements that Mr. Vilar had made to

76a
Appendix G
Cates, after 2002. Statements concerning the GFRDA
investments -- assuming “reliance” – were made years
earlier during the defendants’ course of business.
THE FALSE STATEMENT COUNT
The government spends a lot of time discussing the
false statement count of which only Vilar was convicted.7
7. The government writes about the “false statement” response
that is the subject of the Count XII conviction, stating (Gov.Op. ECF
10): “The Response contained numerous false statements made for
the purpose of deceiving the SEC and hiding Vilar’s and Tanaka’s
unlawful conduct. Among other things, the Response falsely stated
that: (1) Cates had always been a client of Amerindo Panama; (2)
Amerindo Panama had previously been owned by Vilar and Tanaka,
but had been sold in 2001 to unrelated third parties; (3) as of May
20, 2005, there was no common ownership of Amerindo U.S. and
Amerindo Panama; and (4) as of May 20, 2005, there was no overlap
between the directors, officers, and employees of Amerindo U.S. and
Amerindo Panama. (Tr. 1842-51; GX 921).”
The government’s description of the charge is false. Prosecutors
keep repeating that the (appellate) accusation that the jury found
that Vilar lied when he told the SEC that “Cates had always been
a client of Amerindo Panama.” The government’s contention, a
tactic to further subvert the legitimacy of an offshore investment
corporation, is false. Yes, it was a statement in the letter. But it was
not specified as a false statement in the indictment – no doubt because
the government knew that Cates was always a client of the preexisting Panama company. Count 12 of the superseding indictment
reads (DOC 133 ECF p.33):

… VILAR and TANAKA sent a letter to the SEC, in
which they made the following false statements and
concealed and covered up facts that were material to
the SEC’s investigation:

77a
Appendix G
The sale of Amerindo Panama, if contemplated by Mr.
Vilar, in fact had not occurred, and the letter to the SEC
was, as were a number of things Vilar said at times,
“inaccurate.”
But the government’s claim that Vilar’s sending that
letter to the SEC (Tanaka was acquitted) was “for the
purpose of hiding Vilar and Tanaka’s unlawful conduct”
was not true and should have been defended.
Vilar may have intended to deceive the SEC, to get
them off his back in connection with the offshore operation
-- to maintain the confidentiality he promised offshore
Specification One
VILAR and TANAKA falsely stated that as of May 20,
2005, “there [wa]s no common ownership with respect
to Amerindo and Amerindo Panama.”
Specification Two
VILAR and TANAKA falsely stated that as of May 20,
2005, “there [wa]s no overlap between the directors,
officers and employees of Amerindo and Amerindo
Panama.”
Specification Three
VILAR and TANAKA falsely stated that, “[t]he
present ow ners of A mer indo for merly ow ned
Amerindo Panama but they sold it to its present
owners in 2001.”
(Title 18, United States Code, Sections 1001(a) and 2).
In fact Cates was always a client of Amerindo Panama.

78a
Appendix G
clients – as opposed to “hiding” “unlawful” conduct
involving Lily Cates.
The manner of doing so was wrong but does not
warrant the penalty and venom of the SEC, which shut
down his entire business and put him and Mr. Tanaka
in jail and the took their property – including their
management rights and their flagship U.S. advisory
business, without a hearing.
There is no forfeiture remedy for false statement 1001
count, and there is a 5-year maximum sentence. The fact
that the SEC has control of all Vilar’s property and he
is still serving a jail term at age 75, almost 9 years after
his conviction (in a case where there is no actual loss, as
Vilar has maintained since the beginning), is unnerving.
PREJUDICE
There is no doubt that the failure to defend against
financial penalties caused enormous harm to the
defendants. It prevented the jury from considering the
lack of intent to defraud with a full understanding of the
facts.
It gave this Court the impression that the government
accusation of “massive theft” was true when it was not.
Throughout the SEC civil litigation, which of course relied on
the criminal case, this Court has acted on the premise, not
the fact, that there is not and was not sufficient funds to pay
Amerindo investors. (Order, DOC 574, 05cv5231, the Court
stating that it is “not true” that the funds have been there).

79a
Appendix G
The Court cited documents advanced by AUSA Litt
and the SEC. The SEC did not correct the Court when
it stated that “the recovery [of Amerindo Panama funds]
has been possible only because certain of the funds’ assets
have appreciated in value since the fraud ended over a
decade ago and since Defendants’ sentencing in 2010.”
(Footnote 2, DOC 574, citing DOC 432 at p.13-14). This
“fact” also is and was untrue. (See also, e.g., DOCS 576,
545, 515, 510).
It is an impossible “fact” that assets appreciated in
value since “the fraud ended” in 2005. As this Court was
told (by defendants but also by investors), the frozen
assets consisted essentially of trapped cash at the time
of the freeze. Thus the assets could not participate in
the ensuing post 2009 bull market, and so could not
possibly appreciate. Throughout, the government failed
to take steps to assure that interest was being paid. So
the balances did not even increase through accumulated
interest.
By accepting the government theory that there was
no money (a Ponzi scheme) – the accepted “reality” until
Mr. Tanaka presented the Ross report before the first
sentencing (see DOC 408, ordering evaluation of Amerindo’s
frozen assets following the Ross letter submitted in January
2010) (too late for the “loss” discussion that took place, on
incomplete “facts”, in on December 14, 2009) – counsel
caused their clients incalculable harm, including the loss
of the source to pay legal fees, because of the “consensual”
restraint of their assets.

80a
Appendix G
All of this is inexcusable by any notion of a reasonable
defense strategy: The agreement to restrain “substitute
assets” (all defendants’ property) to have money available
to pay restitution for “actual losses” and presumptive
penalties that would follow; the consent to the 2009
restraining order at a time when the government was still
only “suspecting” there would be more defrauded clients
identified; defense lawyers’ failure to even respond to
AUSA Litt’s last-minute sentencing reply, dated February
3, 2010 (ECF DOC 418-1, 418-2) (discussed in the prior
habeas attempt, DOC 671 05cr621); and failing to reach
out to their clients’ family of investors to tell them their
money was intact.
Petitioners were deprived of a fair trial by the failure
of the SEC and the U.S. Attorney to correct the record
when they realized that enforcement actions were being
taken based on false “facts”, together with the failure of
defense counsel to challenge the government and learn
the facts. This was a failure of the adversary process.
If the Court does not grant 2255 relief outright,
discovery and a hearing should be granted. It is ironic
that counsel could have gotten to the bottom of this much
earlier -- if they had known these facts and prepared for
the Franks hearing they were granted. At that hearing,
Mr. Litt testified as a witness. Counsel asked about
suppression of documents, not about suppression of truth.
Because counsel dropped the Constitutional ball, the
truth was suppressed. There was not just theoretical
harm. There have been 12 years of hell for the defendants.

81a
Appendix G
A hearing, if not an outright grant of 2255 relief, is
warranted. Further, if the Court grants 2255 relief, it
should also dismiss the SEC receiver because he is holding
defendants’ assets. (Petitioners aim to move for dismissal
of the related civil cases involving their companies’
property that depend on the forfeiture and the conviction.
They have lacked the funds to hire counsel to defend.)
CONCLUSION
A writ should be granted to Alberto Vilar and to Gary
Tanaka and the judgments in 05cr621 vacated. At the
least the Court should appoint counsel, order a hearing,
and permit discovery. Rules 6-8, Rules Governing Section
2255 Proceedings.
Under the extraordinary circumstances of this case,
the length of Alberto Vilar’s incarceration and his age, the
Court should grant bail to Mr. Vilar pending consideration
of this motion.

82a
Appendix G
May 30, 2017 			

Respectfully submitted,

				/s/
				Vivian Shevitz
				Attorney for Petitioners
				
46 Truesdale Lake Drive
				
South Salem, New York 10590
				914 763 2122
				vivian@shevitzlaw.com

83a
Appendix H OF OPINION OF
Appendix H — EXCERPTS
THE UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT, DATED AUGUST 30, 2013,
STATING THE COURT WOULD NOT REACH
THE INEFFECTIVE ASSISTANCE OF
COUNSEL CLAIM
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket Nos. 10-521-cr(L), 10-580-cr(CON),
10-4639-cr(CON)
UNITED STATES,
Appellee,
v.
ALBERTO VILAR AND GARY ALAN TANAKA,
Defendants-Appellants.
August Term, 2013
(Argued: August 21, 2012
Decided: August 30, 2013)
Before: NEWMAN, CABRANES, and STRAUB, Circuit
Judges.
***

84a
Appendix H
VII. Ineffective Assistance of Counsel
Finally, Vilar contends that his trial counsel was
constitutionally ineffective, laying an extensive list of
missteps and failures at the feet of his former attorney.
Among other things, Vilar charges his trial counsel
with (1) inadequate review of discovery; (2) inadequate
development of defenses; (3) failure to cross-examine
witnesses; (4) failure to advocate for his client in his
summation; and (5) failure to challenge the forfeiture
order.
We have three options for dealing with a claim for
ineffective assistance of counsel raised on direct appeal:
We may “(1) decline to hear the claim, permitting the
appellant to raise the issue as part of a subsequent
petition for writ of habeas corpus pursuant to 28
U.S.C. § 2255; (2) remand the claim to the district court
for necessary fact finding; or (3) decide the claim on the
record before us.” United States v. Ramos, 677 F.3d 124,
129 (2d Cir. 2012) (internal quotation marks omitted).
The Supreme Court has indicated that “in most cases
a motion brought under § 2255 is preferable to direct
appeal for deciding claims of ineffective assistance,”
Massaro v. United States, 538 U.S. 500, 504 (2003),
and we have expressed our own “baseline aversion
to resolving ineffectiveness claims on direct review,”
Ramos, 677 F.3d at 130 (internal quotation marks
omitted). Particularly in view of the complexity of
this case and the absence of any comment from Vilar’s
attorney, see Sparman v. Edwards, 154 F.3d 51, 52 (2d
Cir. 1998), we think it unwise to consider an ineffective

85a
Appendix H
assistance claim on direct review. Vilar may pursue this
claim, if he chooses, in a subsequent § 2255 petition.
CONCLUSION
To summarize, we hold that:
(1) Section 10(b) and Rule 10b-5 do not apply
to extraterritorial conduct, regardless
of whether liability is sought criminally
or civilly. Accordingly, a defendant may be
convicted of securities fraud under Section
10(b) and Rule 10b-5 only if he has engaged in
fraud in connection with (1) a security listed
on an American exchange, or (2) a security
purchased or sold in the United States.
(2) Although the District Court erred by failing
to requi re proof of domestic secu r ities
transactions, that error was not “plain,”
because the evidence in the record demonstrated
that Vilar and Tanaka engaged in fraud in
connection with a domestic purchase or sale
of securities, and therefore, the error did not
affect the outcome of the proceedings or affect
Vilar and Tanaka’s substantial rights.
(3) The indictment was sufficient. In particular,
Cou nt O ne of t he i nd ic t ment w a s not
“duplicitous” because it charged a single scheme
to defraud, and Count Four of the indictment
was sufficiently pleaded, insofar as it informed

86a
Appendix H
Vilar and Tanaka of the charges to be met and
enabled them to plead double jeopardy in the
future
(4) The Dist r ict Cour t properly adm itt ed
evidence obtained during the U.S. and U.K.
searches. First, the District Court correctly
concluded that documents obtained from
defendants’ office in the United States were
admissible pursuant to the “ inevitable
discovery” doctrine. Second, the U.K. search
was reasonable, and therefore, the evidence
obtained was properly admitted because
evidence obtained in a search by the U.S.
government in another country is admissible
so long as the search was “reasonable” under
the Fourth Amendment.
(5) In a prosecution brought by the government
for securities fraud under Section 10(b) or Rule
10b-5, the government does not need to prove
that the victims of a scheme to defraud actually
relied on the material misrepresentation or
om1sswn. Accordingly, the District Court did
not err by not instructing the jury on reliance.
(6) A lt hough the ma i l f raud cha rge in t he
indictment specified that the mailing itself
was false or fraudulent, the District Court’s
instruction permitting the jury to convict
based on a mailing that contained no false or
fraudulent statement did not “constructively
amend” the indictment.

87a
Appendix H
(7) Under the Mandatory Victim Restitution Act,
restitution is not permitted for investors who
purchased securities abroad, inasmuch as
those investors are not victims of an offense
under Section 10(b) or 10b-5.
(8) The District Court must, on remand, determine
what acts constitute offense conduct for the
purposes of calculating loss amount at
sentencing, as well as the amount subject to
forfeiture.
(9) With the exception of Vilar’s ineffective
assistance of counsel claim, which we do not
reach, Vilar and Tanaka’s remaining claims
are without merit.
The February 8, 2010, and February 10, 2010
judgments of conviction of the District Court are
AFFIRMED in all respects, except for the sentences;
and the cause is REMANDED to the District Court with
instructions to vacate both sentences and proceed to
a de novo resentencing consistent with this opinion.40

40. We leave it to the District Court to consider in the
first instance the question of whether bail should be granted
pending any petition for certiorari. In the interest of judicial
economy, jurisdiction may be restored to this Court for an appeal
of the District Court’s bail decision, or of the sentences imposed on
remand, by letter to the Clerk of this Court. Any such proceedings
will be assigned to this panel.

